<html>
<title> - EXAMINING THE GOVERNANCE AND INTEGRITY OF INTERNATIONAL SOCCER</title>
<body><pre>[Senate Hearing 114-168]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-168

     EXAMINING THE GOVERNANCE AND INTEGRITY OF INTERNATIONAL SOCCER

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON CONSUMER PROTECTION,
                       PRODUCT SAFETY, INSURANCE,
                           AND DATA SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-423 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

  SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, INSURANCE, AND 
                             DATA SECURITY

JERRY MORAN, Kansas, Chairman        RICHARD BLUMENTHAL, Connecticut, 
ROY BLUNT, Missouri                      Ranking
TED CRUZ, Texas                      CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                AMY KLOBUCHAR, Minnesota
DEAN HELLER, Nevada                  EDWARD MARKEY, Massachusetts
CORY GARDNER, Colorado               CORY BOOKER, New Jersey
STEVE DAINES, Montana                TOM UDALL, New Mexico
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2015....................................     1
Statement of Senator Moran.......................................     1
Statement of Senator Blumenthal..................................     2
Statement of Senator Daines......................................    25
Statement of Senator Klobuchar...................................    27

                               Witnesses

Daniel Flynn, Chief Executive Officer and Secretary General, U.S. 
  Soccer Federation..............................................     4
    Prepared statement...........................................     6
Michael Hershman, President and CEO, Fairfax Group...............     7
    Prepared statement...........................................     9
Sunjeev Bery, Advocacy Director for the Middle East and North 
  Africa, Amnesty International USA..............................    11
    Prepared statement...........................................    12
Andrew Jennings, Investigative Writer and Filmmaker..............    16
    Prepared statement...........................................    19

                                Appendix

Letter dated July 29, 2015 to Hon. Jerry Moran and Hon. Richard 
  Blumenthal from Jesse Eaves, Director of Policy and Government 
  Relations, Humanity United.....................................    43
Catherine Chen, Director of Investments, Humanity United, 
  prepared statement.............................................    43
Response to written questions submitted to Daniel Flynn by:
    Hon. Maria Cantwell..........................................    46
    Hon. Cory Booker.............................................    47
    Hon. Tom Udall...............................................    49

 
     EXAMINING THE GOVERNANCE AND INTEGRITY OF INTERNATIONAL SOCCER

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
              Safety, Insurance, and Data Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:25 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Jerry Moran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Moran [presiding], Gardner, Daines, 
Blumenthal, and Klobuchar.

            OPENING STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. This hearing of the Subcommittee is now 
called to order.
    We have votes scheduled for 3 o'clock, which is troublesome 
to our schedule here in this subcommittee. We will see how this 
goes as far as how we handle that circumstance when it arises.
    I would like to first thank the witnesses today for 
participating in what I think is a very important hearing 
regarding international soccer governance. I am not one who 
generally thinks Congress should investigate every scandal in 
the world of professional sports, nor do I believe that the 
topics we are discussing today will lead to legislation that 
must be enacted. But as chairman of this Subcommittee with 
jurisdiction over professional sports, I do believe this is a 
significant issue that deserves public attention.
    By shining a light on the corruption, bribery, and other 
criminal activity that has been a part of international soccer 
for far too long, my hope is that the American people, current 
and future sponsors, and media companies that support the games 
today will better understand the consequences of allowing the 
organizations governing soccer to continue without reform, 
including the tragic loss of life. According to some reports, 
as many as 4,000 migrant workers will die before the first ball 
is kicked in the 2022 World Cup. That is appalling.
    Soccer is by far the most popular sport in the world. It is 
truly a global institution that connects humanity across 
language, culture, and continent. Soccer is attracting a wider 
audience by the day right here in the United States. One must 
look no further than the excitement surrounding the U.S. 
Women's National Team winning the 2015 Women's World Cup last 
week to see the impact that soccer has on lives.
    Along with this excitement comes billions of dollars of 
annual revenue from TV contracts, sponsorships, and 
endorsements. That is why the revelations of bribery, 
corruption, and mismanagement at FIFA and CONCACAF are so 
troubling. I am even more disturbed by the reports of migrant 
workers losing their lives in preparation for the world's 
biggest soccer tournament, the World Cup.
    In fact, bribery, corruption, and criminal activity within 
international soccer is so serious that on May 27, 2015, the 
U.S. Department of Justice unsealed a 47 count indictment 
against nine FIFA officials and five corporate executives 
charging the defendants with racketeering, bribery, wire fraud, 
and money laundering. Four other individuals and two corporate 
defendants have also pled guilty to various charges. And Swiss 
investigators are now investigating 81 suspicious activities 
related to money laundering in connection with the 2018 and 
2022 World Cup bids.
    The culture of corruption must be addressed.
    With the announcement that FIFA President Blatter plans to 
step down, we are at a crossroads for the future of soccer. Now 
is the time for the United States and the U.S. Soccer 
Federation to engage and determine how we can encourage 
meaningful reforms, as well as elect a leader at FIFA who will 
spearhead long overdue changes within the organization.
    The goal of this hearing is to have a serious and 
meaningful conversation about how to address FIFA's culture of 
corruption, the United States' participation in the 
organization, and the human rights violations stemming from the 
organization's lapses in integrity. Without evidence that 
reforms are being implemented, we must examine our country's 
own participation in FIFA and how it can restore integrity to 
the world of soccer. We cannot, should not, must not turn a 
blind eye to this issue any longer, especially when human lives 
are at stake.
    I now would like to turn to the Ranking Member, Senator 
Blumenthal, for his opening statement. Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. And I want to 
thank you for having this hearing and for our witnesses being 
here. I also want to thank the Department of Justice for its 
vigorous and profoundly significant investigation.
    And I want to note that soccer is a growing and important 
sport in the United States. We can all take pride and enjoyment 
from the game, most especially from the wonderful and 
convincing win last month by our world champion women's team.
    And I want to congratulate them and say very bluntly that 
the corruption uncovered in world soccer is a disservice to the 
game. It is a disrespect to them. It betrays the trust of 
countless men and women, many of them young people just 
beginning in this sport who have a right to expect better from 
the leaders of this sport.
    The fact of the matter is that what has been revealed so 
far is a mafia-style crime syndicate in charge of the sport. My 
only hesitation in using that term is that it is almost 
insulting to the mafia because the mafia would never have been 
so blatant, overt, and arrogant in its corruption. The simple 
fact is that this indictment, more than 100 pages long, shows a 
crime organization, a racketeering conspiracy. It has an 
organizational chart that shows how it was run. And the 
question is who knew about this criminal wrongdoing, when did 
they know it, and what did they know? Why did they not act more 
quickly? And those are the questions that the U.S. Soccer 
Federation has to answer today.
    These are classic questions involving any racketeering 
conspiracy investigation, and that is why there is, in fact, an 
ongoing criminal investigation. We know some of the individuals 
who were responsible and should be held accountable. At least 
one of the principals has pleaded guilty already, and others 
may be cooperating.
    But the facts show that there had to be either willful 
ignorance or blatant incompetence on the part of many of the 
members of this organization, and that is true of U.S. Soccer 
as well. They either knew about it or they should have known 
about it. And I am not sure which is worse.
    The recent success of our professional women's soccer team 
should remind us and all Americans that FIFA, the international 
organization responsible for regulating and promoting soccer, 
has engaged in this willful and prolonged, disgracefully 
corrupt conduct, including wire fraud, money laundering, and 
racketeering practices spanning more than 2 decades. Many of 
these crimes were committed in the United States, which is 
especially troubling.
    I am saddened by the fact that these corrupt practices over 
many years have deprived American national teams, our youth 
leagues, and millions of American soccer fans of the full value 
and integrity of the game they love. The actions of FIFA's 
international and regional soccer officials have undermined the 
very sport this organization was established to serve.
    And this hearing is an opportunity for us not only to ask 
these questions about who knew what when and why they did not 
do anything about it but also to lay the groundwork for reform, 
just as sports scandals in the past have led to fundamental, 
far-reaching overhauls in the way those sports are organized 
and conducted. I want to know what reforms the U.S. Soccer 
Federation is planning to introduce to instill greater 
transparency and accountability in the governance of soccer in 
America, not whether, but what and when, because clearly there 
is an urgent and immediate need for such reforms.
    But I also believe that America's national soccer 
federation has those serious questions to answer. And I think 
it has to answer them not only at this hearing, but for its 
fans around this country.
    Clearly, we can no longer indulge the idea of FIFA, a 
multi-billion dollar, nonprofit global enterprise being run 
behind closed doors. That is a recipe for disaster and moral 
catastrophe. Only reforms that install greater transparency and 
accountability can shed the necessary sunlight required to 
disinfect this corrupt organization. One proposal is in fact to 
reorganize it as a public corporation or some part of it as a 
public corporation.
    I am proud that the United States has led the world in 
bringing these scandals to light and holding individuals 
responsible, but that job is far from over. There needs to be 
additional action, and it should involve not only members of 
the public and public officials but also--let me emphasize--the 
private corporations that sponsor these events. Corporate 
organizations that sponsor international soccer like 
McDonald's, Nike, Coca-Cola, and Visa play their part by 
ensuring that they stand as guardians of good governance. They 
must do so rather than silent beneficiaries who benefit from 
opaque governance. And at least one of those corporations is 
mentioned without naming it in the indictment.
    As my colleague, Senator Moran, has just mentioned, these 
actions have real-life consequences not only financially but in 
potential discrimination against women in the game and 
potential physical harm to the workers who may have been 
involved and may be involved in other countries where major 
physical construction involves human trafficking and human 
rights abuse and worse. The international community must 
collectively work to ensure that human rights are upheld 
wherever our athletes compete. The betrayal of trust is no less 
when human trafficking is involved in building the stadiums 
where our athletes compete. It is a betrayal of trust on the 
part of those organizations that sponsor the game, and it 
implicates the entire sport. We should not tolerate the world's 
most preeminent sporting competitions being staged at the 
expense of our most vulnerable citizens.
    Today's hearing is a first step, and I want to thank all of 
you for being here today. I look forward to your testimony and 
to restoring the trust of American fans' trust which has been 
betrayed but which they certainly deserve.
    Thank you, Mr. Chairman.
    Senator Moran. I thank the Ranking Member.
    Our panel today for this hearing consists of four 
witnesses: Mr. Dan Flynn, who is the CEO and Secretary General 
of the U.S. Soccer Federation. That is the United States' 
representative at FIFA and CONCACAF. Mr. Michael Hershman. Mr. 
Hershman is the President and CEO of the Fairfax Group, a 
member of FIFA's Independent governance Committee. Mr. Sunjeev 
Bery, the Advocacy Director for the Middle East and North 
Africa, Amnesty International, the United States of America. He 
will testify about findings of the May 2015 Amnesty 
International report regarding working conditions. And finally, 
Mr. Andrew Jennings, who has traveled perhaps the furthest to 
join us. He is an investigative writer and filmmaker credited 
with blowing the cover on the FIFA scandal.
    We will start with Mr. Flynn. Mr. Flynn, please testify.

    STATEMENT OF DANIEL FLYNN, CHIEF EXECUTIVE OFFICER AND 
           SECRETARY GENERAL, U.S. SOCCER FEDERATION

    Mr. Flynn. Thank you, Senator.
    On behalf of the United States Soccer Federation, I would 
like to thank Senator Moran, Senator Blumenthal, Senators Blunt 
and McCaskill from my home state of Missouri, and other members 
of the Subcommittee for giving U.S. Soccer the opportunity 
appear today and answer questions you may have.
    On behalf of our Women's National Team, I would like to 
also thank President and Mrs. Obama, Vice President and Dr. 
Biden, distinguished members of this subcommittee, your Senate 
and House colleagues, and the tens of millions of fans in the 
United States, including the largest television audience ever 
to watch a soccer match in this country who supported and 
cheered this wonderful group of women to the Women's World Cup 
title just 10 days ago.
    I am Daniel Flynn, and I have been U.S. Soccer's Chief 
Executive Officer and Secretary General for the last 15 years, 
and I am ultimately responsible for the day-to-day operations 
of the federation.
    We are a nonprofit membership organization recognized by 
the U.S. Olympic Committee as the national governing body for 
soccer and by FIFA, the world's governing body for the sport of 
soccer, as its national association member for the United 
States. As required by FIFA, we are also a member of CONCACAF, 
the regional confederation which covers the North and Central 
America and Caribbean nations.
    For more than 100 years, U.S. Soccer's mission has been to 
make soccer a preeminent sport in the United States and to 
continue the growth and development of the sport at all levels.
    U.S. Soccer directly fields 17 national teams, including 
the Women's National Team, which has won three World Cup titles 
and four Olympic Gold Medals, and the Men's National Team, 
which is in the process of defending its 2013 CONCACAF Gold Cup 
title. We also field the national paralympic team and numerous 
age-based boys and girls national teams.
    U.S. Soccer is made up of various member organizations 
including, among others, our professional leagues, the adult 
amateur leagues, soccer organizations for disabled athletes, 
and the youth amateur organizations. U.S. Soccer is governed by 
a 15-person volunteer board of directors elected by its members 
which includes independent directors, athlete representatives, 
and directors representing different segments of our 
membership.
    Our annual tax returns, audited financial statements, 
business plans, bylaws, policies, and board of directors 
meeting minutes are all publicly available on our website.
    In FIFA, we are one of 209 national association members. 
FIFA members must vote on any substantial changes to the 
organization. And the vote of every member, regardless of the 
size, the number of players, or the quality of their national 
teams, counts the same. Until 2 years ago, when our president, 
Sunil Gulati, was elected to the FIFA Executive Committee, the 
federation did not have a direct representative on that 
important policymaking body.
    Although our role and influence in FIFA has historically 
been limited, the federation has been a strong advocate for 
reforming the organization by, among other things, improving 
governance, increasing transparency, and strengthening ethics 
rules.
    U.S. Soccer supported FIFA's decision in 2011 to engage 
experts to conduct a review of its governance structure and 
then urged the adoption of the reforms after the governance 
report was released. U.S. Soccer supported the investigation by 
the FIFA Ethics Committee into the bidding and award processes 
for the 2018 and 2022 World Cups and publicly advocated for the 
release of the full investigative report, not just the summary 
report released by FIFA last fall.
    U.S. Soccer was one of the national associations which 
nominated Prince Ali and then publicly supported his challenge 
to FIFA's long-standing president, Mr. Sepp Blatter, in the 
recent election. We did so notwithstanding the potential 
political risks, including the potential impact on our possible 
bid to host the 2026 Men's World Cup. But U.S. Soccer believes 
good governance and good leadership at FIFA is paramount and 
more important to the sport than hosting any individual World 
Cup.
    Going forward, we believe reform will have to start at the 
top, beginning with the election of a new FIFA president in 
light of Mr. Blatter's stated intention to resign. U.S. Soccer 
will look to the new president to lead this reform. We 
understand that many traditional soccer powers also believe it 
is time for a change. U.S. Soccer will continue to work with 
likeminded national associations and confederations to promote 
change and to alter the culture at FIFA.
    At CONCACAF, efforts at reform have proceeded more rapidly. 
In light of the recent events, CONCACAF appointed a three-
person Special Committee, which includes U.S. Soccer's 
President Sunil Gulati, to help guide the confederation through 
this period of turmoil. And over the July Fourth weekend, the 
CONCACAF Executive Committee, based on the recommendations of 
the Special Committee, unanimously approved a series of 
sweeping reforms to address governance, fraud prevention, and 
compliance and transparency.
    Thank you for your time, and I look forward to responding 
to specific questions you may have on this or other subjects.
    [The prepared statement of Mr. Flynn follows:]

    Prepared Statement of Daniel Flynn, Chief Executive Officer and 
               Secretary General, U.S. Soccer Federation
I. Introduction & Overview of U.S. Soccer
    On behalf of the United States Soccer Federation, I would like to 
thank Senator Moran, Senator Blumenthal, Senators Blunt and McCaskill 
from my home state of Missouri, and other members of this Subcommittee 
for giving U.S. Soccer the opportunity to appear today and answer 
questions you may have.
    On behalf of our Women's National Team, I would also like to thank 
President and Mrs. Obama, Vice President and Dr. Biden, distinguished 
members of this Subcommittee, your Senate and House colleagues, and the 
tens of millions fans in the United States, including the largest 
television audience ever to watch a soccer match in this country, who 
supported and cheered this wonderful group of women to the Women's 
World Cup title just 10 days ago.
    I am Daniel Flynn. I have been U.S. Soccer's Chief Executive 
Officer and Secretary General for the last 15 years and am ultimately 
responsible for the day to day operations of the Federation.
    We are a non-profit membership organization recognized by the U.S. 
Olympic Committee as the National Governing Body for Soccer in the 
United States and by FIFA--the world governing body for the sport of 
soccer--as its National Association member for the United States. As 
required by FIFA, we are also a member of CONCACAF, the regional 
confederation which covers the North and Central America and the 
Caribbean nations.
    For more than 100 years, U.S. Soccer's mission has been to make 
soccer a preeminent sport in the United States and to continue the 
growth and development of the sport at all levels.
    U.S. Soccer directly fields 17 national teams, including the 
Women's National Team which has won 3 World Cup titles and 4 Olympic 
Gold Medals, and the Men's National Team which is in the process of 
defending its 2013 CONCACAF Gold Cup title. We also field the national 
paralympic team, and numerous age-based boys and girls national teams.
    U.S. Soccer is made up of various member organizations, including, 
among others, our professional leagues, the adult amateur leagues, 
soccer organizations for disabled athletes and the youth amateur 
organizations. U.S. Soccer is governed by a 15 person volunteer board 
of directors elected by its members which includes independent 
directors, athlete representatives and directors representing different 
segments of our membership.
    Our annual tax returns, audited financial statements, business 
plans, bylaws, policies and board of directors meeting minutes are all 
publicly available on our website.
II. FIFA & CONCACAF Governance
    In FIFA, we are 1 of 209 national association members. FIFA members 
must vote on any substantial changes to the organization. And, the vote 
of every member, regardless of size, number of players or quality of 
their national teams, counts the same. Until two years ago, when our 
President, Sunil Gulati, was elected to the FIFA Executive Committee, 
the Federation did not have a direct representative on that important 
policy making body.
    Although our role and influence in FIFA has historically been 
limited, the Federation has been a strong advocate for reforming the 
organization by, among other things, improving governance, increasing 
transparency and strengthening ethics rules.
    U.S. Soccer supported FIFA's decision in 2011 to engage experts to 
conduct a review of its governance structure and then urged the 
adoption of the reforms after the governance report was released. U.S. 
Soccer supported the investigation by the FIFA Ethics Committee into 
the bidding and award processes for 2018 and 2022 World Cups, and 
publicly advocated for the release of the full investigative report--
not just the ``Summary Report'' released by FIFA last Fall.
    U.S. Soccer was one of the national associations which nominated 
Prince Ali and then publicly supported his challenge to FIFA's 
longstanding President, Mr. Sepp Blatter, in the recent election. We 
did so notwithstanding the potential political risks, including the 
potential impact on our possible bid to host the 2026 Men's World Cup. 
But, U.S. Soccer believes good governance and good leadership at FIFA 
is paramount and more important to the sport than hosting any 
individual World Cup.
    Going forward, we believe reform will have to start at the top--
beginning with the election of a new FIFA President in light of Mr. 
Blatter's stated intention to resign. U.S. Soccer will look to the new 
President to lead this reform. We understand that many traditional 
soccer powers also believe it is time for a change. U.S. Soccer will 
continue to work with like-minded national associations and 
confederations to promote change and to alter the current culture at 
FIFA.
    At CONCACAF, efforts at reform have proceeded more rapidly. In 
light of recent events, CONCACAF appointed a three-person Special 
Committee, which includes U.S. Soccer's President Sunil Gulati, to help 
guide the confederation through this period of turmoil. And, over the 
July 4th weekend, the CONCACAF Executive Committee, based on the 
recommendations of the Special Committee, unanimously approved a series 
of sweeping reforms to address governance, fraud prevention and 
compliance and transparency.
III. Conclusion
    Thank you for your time, and I look forward to responding to 
specific questions you may have on this and other subjects.

    Senator Moran. Mr. Flynn, thank you for your testimony.
    Mr. Hershman?

STATEMENT OF MICHAEL HERSHMAN, PRESIDENT AND CEO, FAIRFAX GROUP

    Mr. Hershman. Good afternoon, Chairman Moran, Ranking 
Member Blumenthal, and members of the Subcommittee. Thank you 
for this opportunity to appear before you today alongside such 
esteemed colleagues in the field of transparency and integrity 
in the global world of sports. I am honored to speak on an 
issue that has been a passion and driving force throughout my 
career, including having served for 2 years on the Independent 
Governance Committee of FIFA and as co-founder of Transparency 
International, the world's leading NGO on issues relating to 
transparency and accountability. Additionally, I am currently 
spearheading an integrity project in sports as an advisory 
board member for the International Centre for Sport Security.
    As Senator Moran has stated before, ``Soccer is by far the 
most popular sport in the world, and it is attracting a wider 
audience by the day in the United States.'' However, the upper 
echelons of the sport's governing body have been notoriously 
corrupt for many years. Until the laudable recent efforts of 
the U.S. Justice Department and the FBI, many allegations were 
mostly swept under the rug. Now that FIFA's lack of 
transparency and accountability has been brought into the 
global public attention, there is a tremendous opportunity to 
discuss the inherent autonomy in sporting organizations.
    Sports organizations have long maintained that autonomy is 
essential to the preservation of the values embedded in sport. 
Now, this is a difficult concept to argue with, that is, until 
the core values in sport are undermined by a lack of 
accountability and trust, which we have seen recently in one of 
the world's largest, most profitable sporting bodies, FIFA.
    The growing commercial interests at play, the protection 
that many governments offer large sporting organizations, and 
the rapidly growing sports gambling industry, both legal and 
illegal, are all converging to create a situation where self-
regulation is increasingly challenging. The sports industry 
must put in place governance and compliance standards which 
demonstrate the best practices in transparency and 
accountability. FIFA is a big business with revenue of about 
$5.6 billion every 4-year World Cup cycle.
    And FIFA had a chance to be a leader in reform when the 
scandals first began popping up about 10 years ago. Despite 
multiple chances to change, after being presented with reform 
proposals by Transparency International, as well as our own 
Independent Governance Committee, FIFA held to the 
irresponsible notion that it was autonomous, it did not have to 
adhere to outside oversight or interference.
    The U.S. public cannot assume that FIFA is the only 
sporting body with endemic structural problems. Every single 
governing body in the sports world, from the International 
Olympic Committee to the ICC to the NFL needs to agree to 
modern standards of transparency and accountability. While many 
people around the world hold sport as sacred, it has become an 
incredibly profitable industry that needs to be regulated and 
treated for what it is: big business.
    These recent events are bigger than FIFA. They require 
coordinated global action across all sporting bodies, and I 
believe there is a way we can achieve this reform with the 
cooperation and support from governments and sport industry 
leaders around the world. The International Centre for Sport 
Security, which is also a nonprofit organization, has borne the 
idea of the Sports Industry Transparency Initiative. I serve on 
their board of advisors, and we have established a set of 
global standards which would be voluntarily adopted by sports 
organizations. This collective action agreement will form a 
governing group that would work with the sports community to 
promote transparency and accountability while strengthening a 
higher standard of ethics and values in sports. These standards 
would finally create a benchmark to evaluate the effectiveness 
and efficiency of sports governance and compliance programs.
    The standards would include but not be limited to 
professionalizing boards of directors in sports, managing 
conflicts of interest, building a democratic foundation, 
embracing transparency and accountability, leveling the playing 
field for athletes, men and women, motivating ethical behavior 
for staff and volunteers, engaging with key stakeholders, 
showcasing sport event integrity, considering the positive role 
of sport in society, and establishing effective risk controls.
    This approach will be comprehensive and far-reaching. While 
every principle does not apply to all sports organizations, 
there is enough common ground to ensure that sports groups 
understand what is expected of them in terms of integrity and 
transparency. As Attorney General Loretta Lynch so rightly 
pointed out in her speech after announcing the FIFA charges, 
``Many of the individuals and organizations we will describe 
today were entrusted with keeping soccer open and accessible to 
all. They held important responsibilities at every level, from 
building soccer fields for children in developing countries to 
organizing the World Cup. They were expected to uphold the 
rules that keep soccer honest and protect the integrity of the 
game. Instead, they corrupted the business of worldwide soccer 
to serve their interests and enrich themselves.''
    Mr. Chairman, thank you. I look forward to answering your 
questions and those of the Committee members.
    [The prepared statement of Mr. Hershman follows:]

      Prepared Statement of Michael Hershman, President and CEO, 
                             Fairfax Group
        The hearing will examine the integrity and impending leadership 
        changes at FIFA, the role of the United States in international 
        soccer, and concerns about the labor conditions of workers in 
        Qatar, the host of the 2022 World Cup. The Consumer Protection 
        Subcommittee exercises jurisdiction over sports within the 
        Senate Commerce Committee.
        ``Soccer is by far the most popular sport in the world, and it 
        is attracting a wider audience by the day in the United 
        States,'' said Sen. Moran. ``Children across America and the 
        globe look up to athletes as role models, and professional 
        sports must be held to the highest standards. The recent 
        revelations of bribery and mismanagement at FIFA should be of 
        concern to us all. The organization's culture of corruption is 
        turning a blind eye to significant human rights violations and 
        the tragic loss of lives. This hearing on the recent FIFA 
        scandals will begin the discussion about our country's own 
        participation in the organization, ways the United States and 
        our allies can work to reform FIFA, and how we can restore 
        integrity to the game so many Americans and citizens of the 
        world enjoy.''

    Good afternoon Chairman Moran, Ranking Member Blumenthal, and the 
members of the Subcommittee. Thank you for the opportunity to appear 
before you today alongside such esteemed colleagues in the field of 
transparency and integrity in the global sports world. I am honored to 
speak on an issue that has been a passion and driving force throughout 
my career, including having served as a Member of the Independent 
Governance Committee of FIFA and as Co-Founder of Transparency 
International the world's leading NGO on issues relating to 
transparency and accountability. Additionally, I am currently 
spearheading an integrity project as an advisory board member of the 
International Centre for Sport Security.
    As Senator Moran has stated before, ``Soccer is by far the most 
popular sport in the world, and it is attracting a wider audience by 
the day in the United States.'' However, the upper echelons of the 
sport's governing body have been notoriously corrupt for many years. 
Until the laudable recent efforts of the U.S. Department of Justice and 
the FBI, these allegations were mostly swept under the rug. Now that 
FIFA's lack of transparency and accountability has been brought into 
the global public attention, there is a tremendous opportunity to 
discuss the inherent autonomy in sporting organizations. Sports 
organizations have long maintained that autonomy is essential to the 
preservation of the values embedded in sport. This is a difficult 
concept to argue with, that is until the core values in sport are 
undermined by a lack of accountability that we have seen recently in 
one of the world's largest, and most profitable, sporting bodies.
    The growing commercial interests at play, the protection that many 
governments offer large sporting organizations, and the rapidly growing 
sports gambling industry, legal and illegal, are all converging to 
create a situation where self-regulation is increasingly challenging. 
The sports industry must put in place governance and compliance 
standards, which demonstrate the very best practices in transparency 
and accountability. FIFA is a big business with revenue of 
approximately 5.6 billion dollars with every four-year World Cup cycle.
    FIFA had a chance to be a leader in this area when the scandals 
surrounding the organization began to unfold some 10 years ago. Despite 
multiple chances to change after being presented with reform proposals 
from Transparency International as well as their own Independent 
Governance Committee, FIFA held to the irresponsible notion; it was 
autonomous and did not have to adhere to outside oversight or 
interference. The U.S. public cannot assume that FIFA is the only 
sporting body with endemic structural problems. Every single governing 
body in the sports world, from the IOC to the ICC to the NFL, needs to 
agree to modern standards of transparency and accountability. While 
many people around the world hold sport as sacred, it has become an 
incredibly profitable industry that needs to be regulated and treated 
for what it is: big business. These recent events are bigger than FIFA. 
They require coordinated global action across ALL sporting bodies.
    I believe there is a way that we can achieve this reform with the 
cooperation and support from major government and sports industry 
leaders around the world. The International Centre for Sport Security, 
a non-profit organization working towards the integrity, safety, and 
security of sport, has borne the idea of the Sports Industry 
Transparency Initiative (SITI). This visionary organization, of which I 
serve as an advisory board member, has established a set of global 
standards, which would be voluntarily adopted by sports organizations. 
This collective action agreement will form a governing group that would 
work with the sports community to promote transparency and 
accountability while strengthening a higher standard of ethics and 
values in sports. These standards would finally create a benchmark to 
evaluating the effectiveness and efficiency of sports governance and 
compliance programs.
    The standards would include but not be limited to:

  <bullet> Professionalizing the board of directors

  <bullet> Managing conflicts of interest

  <bullet> Building a democratic foundation

  <bullet> Embracing transparency and accountability

  <bullet> Leveling the playing field for athletes

  <bullet> Motivating ethical behavior for staff and volunteers

  <bullet> Engaging key stakeholders

  <bullet> Showcasing sport event integrity

  <bullet> Considering the positive role of sport in society

  <bullet> Establishing effective risk controls

    The SITI approach will be comprehensive and far-reaching. While 
every principle does not apply to all sports organizations, there is 
enough common ground to ensure that sports groups understand what is 
expected of them in terms of integrity and transparency. As Attorney 
General Loretta Lynch so rightly pointed out in her speech after 
announcing the FIFA charges, ``Many of the individuals and 
organizations we will describe today were entrusted with keeping soccer 
open and accessible to all. They held important responsibilities at 
every level, from building soccer fields for children in developing 
countries to organizing the World Cup. They were expected to uphold the 
rules that keep soccer honest, and protect the integrity of the game. 
Instead, they corrupted the business of worldwide soccer to serve their 
interests and enrich themselves.''
    As the Attorney General noted, whether we like it or not, sport is 
now a big business. Therefore, we must treat this industry as such. 
FIFA is not a non-profit organization, thus it should not be allowed to 
function in this respect. With the ICSS's visionary SITI standards and 
global collaboration from sports leaders, there is hope that we can 
reform the blights of corruption, lack of integrity, and weak 
transparency that currently characterize our sporting world.

    Senator Moran. Mr. Hershman, thank you.
    Mr. Bery, welcome and we welcome your testimony.

          STATEMENT OF SUNJEEV BERY, ADVOCACY DIRECTOR

             FOR THE MIDDLE EAST AND NORTH AFRICA,

                   AMNESTY INTERNATIONAL USA

    Mr. Bery. Chairman Moran, Ranking Member Blumenthal, 
Senator Gardner, Senator Daines, and distinguished guests, on 
behalf of Amnesty International thank you for the opportunity 
to address the issue of human rights in Qatar and the 2022 FIFA 
World Cup.
    The 2022 FIFA World Cup has brought into global focus the 
shocking conditions that are routine for migrant workers in 
Qatar. Under Qatar's Kafala employment sponsorship system, 
foreign migrant workers cannot change employers or leave Qatar 
without the permission of their current employer. Even if the 
employer is not paying the employee, the employer can still 
block the employee from changing jobs or leaving the country.
    In 2012, the Qatar National Research Fund funded a survey 
of some 1,000 low-income labor migrants. Ninety percent of 
migrants said their employers possessed their passports, a 
violation of poorly enforced Qatari law. Twenty percent said 
their salary was different than the salary they had been 
promised prior to leaving their home country. Twenty-one 
percent said they sometimes, rarely, or never receive their 
salary on time.
    As document by Amnesty International researchers, James 
Lynch and Mustafa Qadri, in the most extremely examples, 
foreign migrant workers in Qatar have become suicidal after 
being trapped without pay by employers. They have been forced 
to depend on charity from others simply to eat. Meanwhile, 
their family members in poor communities in their countries of 
origin can face eviction and other serious challenges because a 
family member is trapped in Qatar and not being paid for work 
they have done.
    There are an astounding more than 1.5 million foreign 
nationals working in Qatar today. Well over 90 percent of the 
total workforce consists of foreign nationals. These numbers 
have increased at a dramatic rate with Qatar's population 
growing by a staggering 43 percent since the country was 
awarded the World Cup in December 2010. This is occurring in 
the context of a massive construction boom in the country. The 
Government of Qatar is spending hundreds of billions of dollars 
in a massive infrastructure development program. This new 
construction goes well beyond stadiums. Many of these 
construction projects are not solely for the World Cup but they 
remain central to the success of this sporting event and the 
overlapping effort to make Qatar a global destination for 
tourism and commerce.
    The problems faced by foreign migrant workers in Qatar go 
beyond the restrictions placed by the Kafala employer 
sponsorship system. Foreign migrant workers are forbidden from 
forming or joining trade unions. While Qatar does have labor 
laws which should offer some protection for workers, these are 
not enforced effectively.
    To make matters even worse, thousands of foreign migrant 
workers in domestic service roles are specifically excluded 
from the protections set out under Qatar's poorly enforced 
labor law. These migrant workers, who are mainly women working 
in households, are exposed to even greater labor exploitation 
and abuse, including sexual violence.
    Now, despite repeated announcements to the contrary, the 
Government of Qatar has failed to address the problem of labor 
exploitation. In May 2014, the Qatar Government promised some 
limited reforms to address the widespread exploitation of 
migrant workers in the country. But one year later, none of 
these reforms have been implemented.
    In 2014, Amnesty International identified nine key labor 
exploitation issues that Qatar should address urgently. One 
year later, nothing has changed in four of the most critical 
areas of abuse. Only limited actions have been taken in the 
remaining five areas, actions which do not address the 
fundamental structural factors that facilitate abuse in Qatar.
    The ultimate responsibility for the rights of workers in 
Qatar rests with the Qatari authorities, but when FIFA awarded 
the 2022 World Cup to Qatar, it assumed a responsibility for 
the human rights impact of that decision. Unfortunately, FIFA's 
efforts have fallen far short of the concrete action needed to 
ensure that the World Cup in Qatar is not based on labor 
exploitation.
    In my written testimony, I have outlined specific solutions 
to Qatar's problem of labor exploitation. These solutions 
should be implemented by the Government of Qatar, FIFA, 
companies in the construction sector, and countries that 
migrant workers are from. The United States Government can help 
in specific ways.
    For the Government of Qatar, the solution, of course, is to 
fix its deeply flawed Kafala sponsorship system and address the 
many other problems that I have highlighted today.
    For FIFA, it is not enough for the organization's officials 
to simply accept the verbal commitments of the Government of 
Qatar. FIFA must send a strong public message to the Qatari 
authorities and the construction sector that human rights must 
be respected in all World Cup-related construction projects, 
and FIFA must put in place effective systems to monitor and 
report on this. This includes not only stadiums and training 
facilities, but also hotels, transportation projects, and other 
infrastructure.
    If reforms are not put in place urgently, the facilities 
for the 2022 World Cup will carry the permanent stain of forced 
labor and human suffering.
    On behalf of Amnesty International, thank you for the 
opportunity to testify today.
    [The prepared statement of Mr. Bery follows:]

   Prepared Statement of Sunjeev Bery, Middle East and North Africa 
              Advocacy Director, Amnesty International USA
    Chairman Moran, Ranking Member Blumenthal, distinguished members of 
the Subcommittee, and distinguished guests: On behalf of Amnesty 
International, thank you for the opportunity to address the issue of 
human rights in Qatar and the 2022 FIFA World Cup.
    My name is Sunjeev Bery, and I serve as Amnesty International USA's 
Advocacy Director for the Middle East and North Africa. Together with 
our researchers, volunteer leaders, and millions of members and 
supporters, Amnesty International works to advance human rights 
worldwide.
Amnesty International's Research on Qatar
    The 2022 FIFA World Cup has brought into global focus the shocking 
conditions that are routine for migrant workers in Qatar. Through 
multiple on-the-ground investigations and human rights reports, Amnesty 
International researchers James Lynch and Mustafa Qadri have closely 
documented an array of human rights violations, how private companies 
take advantage of Qatar's abusive Kafala labor system, and the failure 
of the Qatari state to protect migrant workers from abuse.
    Amnesty International has investigated the on-the-ground realities 
for thousands of foreign migrant workers at corporate construction 
sites and in Qatar's homes, where foreign nationals are employed as 
domestic workers. We have engaged with dozens of companies involved in 
construction from India, Lebanon, South Korea, Japan, Spain, France, 
and Qatar itself. We have spoken to hundreds of migrant workers in the 
construction sector from Bangladesh, Egypt, India, Nepal, Pakistan, the 
Philippines and Sri Lanka. We have held more than twenty meetings with 
Qatari government representatives and directly engaged FIFA officials.
The Scale of the Problem
    Well over 90 percent of the total workforce in Qatar consists of 
foreign nationals. There are over 1.5 million foreign nationals working 
in Qatar today. And that number has increased at a dramatic rate, with 
Qatar's population growing by a staggering 43 percent since the country 
was awarded the World Cup in December 2010.
    Under Qatar's Kafala employment sponsorship system, foreign migrant 
workers cannot change employers or leave Qatar without the permission 
of their current employer. Even if an employer is not paying the 
employee, the employer can still block the employee from changing jobs 
or leaving the country. As noted by the Qatari government's own review 
of its migrant labor system, conducted by the international law firm 
DLA Piper, this system gives rise to abuse.
    In addition to the restrictions placed by the Kafala system, 
foreign migrant workers are forbidden from forming or joining trade 
unions, denying them a key avenue for advocating for their rights. 
While Qatar does have labor laws which should offer some protection for 
workers, these are not enforced effectively. In particular, there are 
not enough inspectors, and inspection is not stringent. When abuses do 
occur, access to justice for victims of labor exploitation is 
difficult, time-consuming and expensive.
    In the most extreme examples, foreign migrant workers have become 
suicidal after being trapped without pay by employers in Qatar. They 
have been forced to depend on charity from others simply to eat. 
Meanwhile, their family members in poor communities in their countries 
of origin can face eviction and other serious challenges because a 
family member is trapped in Qatar and not being paid for work they have 
done. The ordeal sometimes only ends when workers agree to sign 
documents that falsely state that they had received all their pay, 
simply to get their passports back and go home.
    When foreign migrant workers decide to stop working under abusive 
circumstances, employers sometimes levy the threats of penalties to 
prevent work stoppages, creating conditions that amount to forced 
labor.
    Companies from around the world--Europe, the Americas, Asia, and 
the Middle East and North Africa--are working in the construction 
industry in Qatar and have been involved in projects in which abuses 
were documented by Amnesty International. In some cases, these 
companies were the direct employers of workers, while in other cases 
they were acting as main contractors that had subcontracted parts of a 
project to smaller companies. These subcontractors in turn were 
subjecting their employees to exploitation.
    All of this is occurring in the context of a massive construction 
boom in the country. The Government of Qatar is spending hundreds of 
billions of dollars in a massive infrastructure development program. 
The new construction goes well beyond stadiums. It includes new roads, 
thousands of new hotel rooms, a new airport which opened last year, and 
a metro system and railway system. Roads are being overhauled, sewage 
systems are being revamped, and a new port will open--in part simply to 
cope with the massive demand for raw materials on other projects. Many 
of these construction projects aren't solely for the World Cup, but 
they remain central to the success of this event and the overlapping 
effort to make Qatar a global destination for tourism and commerce.
Measuring the Abuses
    The size of the problem is staggering. In 2012, the Qatar National 
Research Fund funded a survey of some 1,000 low-income labor migrants.

  <bullet> 90 percent of migrants said their employers possessed their 
        passports, a violation of Qatari law.

  <bullet> 20 percent said their salary was different than the salary 
        they had been promised prior to leaving their home country.

  <bullet> 21 percent said they ``sometimes, rarely, or never'' 
        received their salary on time.

    According to the 2010 census, the last year for which a detailed 
breakdown is available, construction companies in Qatar employed over a 
half-million foreign national workers. This number has without doubt 
risen significantly over the last five years. If you extrapolate the 
above polling numbers across the vast numbers of foreign workers in 
Qatar, it suggests that there are many thousands of foreign migrant 
workers who have been abused in Qatar.
    The human rights violations and abuses go beyond forced labor:

  <bullet> Migrant workers frequently go into debt and pay substantial 
        fees to recruitment agencies in order to obtain work in Qatar. 
        Often the recruitment agencies make false promises about 
        salaries or the type of work on offer. This can amount to human 
        trafficking.

  <bullet> Employers can leave workers ``undocumented'' by not issuing 
        them the residency papers they need. This leaves them at risk 
        of being detained by Qatari authorities when they leave their 
        physical workplace.

  <bullet> Employers can house workers in squalid and unsafe 
        accommodations.

  <bullet> On-site conditions for construction workers can be harsh and 
        dangerous. Workers face barriers in accessing health care.

    To make matters even worse, thousands of migrant domestic workers 
are specifically excluded from the protections set out under Qatar's 
poorly enforced Labor Law. These migrant domestic workers, who are 
mainly women, are generally based within their employers' homes. As a 
result, and because they are excluded from the protections of Qatar's 
Labor Law, migrant domestic workers are exposed to even greater labor 
exploitation and abuse, including sexual violence. Women migrant 
domestic workers can even face prosecution and imprisonment for 
``illicit relations'' if they report sexual abuse by employers. In 
addition, all women in Qatar face the heightened risk of abuse due to 
the absence of a law specifically criminalizing domestic violence.
    Migrant workers may also fall victim to the flaws in Qatar's 
criminal justice system. In 2010, the government arrested Ronaldo Lopez 
Ulep, from the Philippines. He was convicted of espionage after being 
held for one month in incommunicado detention. To date, the government 
has not rebutted allegations of torture during the first eight months 
of his detention. In 2011, Columbian national Juan Pablo Iragorri was 
arrested and faced serious violations to his right to a fair trial and 
due process.
    It is worth briefly noting that the same flaws in the 
administration of justice negatively impact Qatari nationals. In 2011, 
the Qatari government unfairly arrested and convicted poet Mohammad al-
`Ajami for the peaceful expression of his conscientiously held beliefs. 
Al-`Ajami had published many poems, some of them in praise of Gulf 
leaders, and others critical of other poets or the authorities.
    Al-`Ajami was convicted of breaking vaguely worded laws that did 
not constitute internationally recognizable criminal offences. 
Interrogators forced him to sign a document used to convict him. The 
investigating magistrate served as presiding judge, trial sessions were 
closed and he was forced to change lawyers. Al-`Ajami, whose trial was 
flagrantly unfair, is serving a 15-year prison sentence.
Qatar's Claims of Reform: The Reality
    Despite repeated announcements to the contrary, the Government of 
Qatar has failed to address the problem of labor exploitation. In May 
of 2014, the Qatar government promised some limited reforms to address 
the widespread exploitation of migrant workers in the country. But one 
year later, none of these reforms have been implemented. It remains 
unclear whether there will be any new legislation relating to Kafala in 
2015.
    Since the issue of labor abuses in Qatar first achieved significant 
national and international attention, there have been some limited 
steps taken by the government. These include an increase in the number 
of labor inspectors, a new law requiring that companies pay wages 
electronically rather than in cash, and a commitment to building new 
decent accommodation for workers. Some major Qatari institutions, 
including the Supreme Committee for Delivery and Legacy--which is 
organizing the construction of World Cup stadiums--and the Qatar 
Foundation have introduced mandatory ``Worker Welfare Standards'' which 
they require contractors to observe. If these standards were 
implemented in full, conditions for workers on these specific projects 
would be significantly higher than for the average migrant laborer in 
Qatar.
    These various steps, while positive in and of themselves, do not 
address the fundamental structural factors that facilitate abuse in 
Qatar. Our on-the ground research in 2015 has found that the violations 
continue, and that state authorities are still failing to address these 
violations when workers raise grievances.
    In particular, despite some promises, there has been no concrete 
progress whatsoever on the following issues since Qatar was awarded the 
2022 World Cup:

  <bullet> Abolishing the exit permit system so that foreign migrant 
        workers can leave Qatar without being blocked by their 
        employers.

  <bullet> Ending the restriction on foreign migrant workers changing 
        employers without the permission of their current employer.

  <bullet> Establishing basic legal protections for the labor rights of 
        domestic workers.

  <bullet> Lifting the ban on foreign migrant workers forming or 
        joining a trade union.
FIFA and the World Cup
    While the ultimate responsibility for the rights of workers in 
Qatar rests with the Qatari authorities, FIFA has a clear 
responsibility as set out by UN and OECD guidelines on business and 
human rights. This responsibility is to act when there is a clear risk 
of abuses in the staging and hosting of a World Cup. Migrant 
construction workers and migrant service industry workers are on the 
frontline in delivering the World Cup experience in Qatar.
    FIFA makes frequent public reference to its concerns about migrant 
labor conditions in Qatar. According to FIFA, concerns over migrant 
worker rights have been raised with senior Qatari officials, including 
the Emir. While this engagement is welcome, FIFA's efforts fall far 
short of the concrete action needed to ensure that the World Cup in 
Qatar is not based on labor exploitation. This engagement also pales in 
comparison to the focus FIFA has placed on the issue of Qatar's 
seasonal temperatures and tournament scheduling in relation to the 2022 
World Cup. When FIFA awarded the 2022 World Cup to Qatar, it assumed a 
responsibility for the human rights impact of that decision.
The Solution
Government of Qatar
    The solution, of course, is for the Qatar government to fix its 
deeply flawed Kafala sponsorship system and address the many other 
problems that have been highlighted above. It is ultimately the 
obligation of the Government of Qatar to protect the migrant workers 
who are constructing its World Cup vision.
    As a first critical step, Qatar must abolish the inherently abusive 
Exit permit, which can enable abusive employers to trap foreign migrant 
workers in Qatar for months on end. Foreign migrant workers shouldn't 
need the permission of their employers to leave the country and return 
home. Qatar and Saudi Arabia are the only countries in the Gulf region 
that still have this requirement in place.
    Second, the Government of Qatar must abolish the requirement for 
foreign migrant workers to obtain their current employer's permission 
before changing jobs. This is known as a ``No objection certificate'' 
or ``NOC.''
    Third, the Government of Qatar must enforce the protections for 
workers that are already written into Qatar's laws. The government must 
strengthen the labor inspection system, ensure that workers do not have 
their passports confiscated, and abolish fees charged to workers filing 
cases of abuse against employers in the courts.
    Finally, the Government of Qatar must fix the country's flawed 
Labor Law. Domestic workers and other categories of workers should no 
longer be excluded from its protections. Foreign migrant workers must 
be allowed to form or join trade unions.
FIFA
    It is not enough for FIFA officials to simply accept the verbal 
commitments of the Government of Qatar, especially given Qatari 
officials' record of failure when it comes to actually turning promises 
of reform into any kind of reality. FIFA must send a strong public 
message to the Qatari authorities and the construction sector that 
human rights must be respected in all World Cup-related construction 
projects. This includes not only stadiums and training facilities being 
managed by the Qatar 2022 Supreme Committee, but also increased hotel 
capacity as well as key transport and other infrastructure that will 
support the staging of the World Cup. The organization should also work 
closely with the Qatar 2022 Supreme Committee and the Qatari 
authorities to ensure that the protection of migrant workers is 
addressed as a matter of urgency.
    FIFA has said that for the 2026 World Cup, it will include human 
rights requirements in its bidding process. Any such initiative must 
result in FIFA having adequate human rights due diligence systems in 
place that would enable FIFA to become aware of and prevent human 
rights abuses as a consequence of the staging of World Cup events in 
the future.
Companies in the construction sector
    The weaknesses in Qatari law do not absolve companies of 
responsibility to respect the rights of foreign migrant workers and to 
ensure that subcontractors do not abuse their workers. Major companies 
managing projects in many cases appear to lack effective policies and 
procedures to prevent labor exploitation.
    Companies and employers have a responsibility to prevent abuses 
even if they did not directly contribute to them. This is true both for 
major corporations who own or manage large projects as well as for 
small contractors who are often the direct employers of migrant 
construction workers.
Sending countries
    Finally, governments of countries from which migrant workers come 
(``sending countries'') also have responsibilities for protecting 
migrants from abuse. In our 2011 report, False Promises: Exploitation 
and forced labor of Nepalese migrant workers, Amnesty International 
documented the failure of the Government of Nepal to properly implement 
its own laws to stop trafficking and forced labor.
The U.S. Congress and Executive Branch
    There are several key steps that the U.S. Congress and the 
Executive Branch can take to help address labor exploitation in Qatar 
today.
    First, U.S. officials can ensure that commercial promotion 
activities in the Gulf region are not ignoring the real risks to 
workers. Any U.S. trade delegation going to Qatar to push for World Cup 
construction contracts should be fully briefed on the risks of abuses 
in their contracting chain, and informed of their responsibilities to 
address this risk. The U.S. should be aspiring to lead in terms of the 
way in which its multinational construction firms deliver on human 
rights throughout their contracting chain.
    Second, the U.S. can make the reform of migrant labor a key U.S. 
foreign policy goal and convey that message to partners in the Gulf. 
The U.S. Senate has many opportunities to build support for such a 
priority. One key opportunity is in the context of confirmation 
hearings for U.S. diplomats appointed by the White House to serve in 
the Middle East.
    Finally, U.S. officials should raise this as a public issue. The 
U.S. State Department's Trafficking in Persons (TIP) report is an 
important instrument for applying pressure, but it is released once a 
year. The same is true of the U.S. State Department's annual Country 
Reports on Human Rights Practices. When it comes to the 2022 FIFA World 
Cup in Qatar, Congress has an opportunity to institutionalize the 
spotlight of today's hearing by establishing a more frequent public 
report from the U.S. State Department that focuses on foreign migrant 
labor exploitation in Qatar. Such a report could shine a regular and 
ongoing public spotlight on the key issues raised in my testimony 
today. Qatari officials' rhetoric on reforms to the Kafala system and 
related labor violations could be matched against the ongoing reality. 
In addition, related issues like international media and NGO access to 
foreign migrant workers and foreign domestic workers in Qatar could 
also be documented.
Conclusion
    When World Cup fans arrive in Qatar in 2022, it would be troubling 
for many to learn that their experience there was built on the backs of 
abused migrant workers. If reforms are not put in place soon, the 
facilities for the 2022 World Cup will carry the permanent stain of 
forced labor and human suffering.
    On behalf of Amnesty International, thank you for the opportunity 
to testify today.

    Senator Moran. Mr. Bery, thank you for testifying.
    Mr. Jennings, welcome and we welcome your testimony.

    STATEMENT OF ANDREW JENNINGS, INVESTIGATIVE WRITER AND 
                           FILMMAKER

    Mr. Jennings. Chairman Moran and Ranking Member Blumenthal, 
I would like to join with everybody else in honoring American's 
soccer players and the gracious way they and the other 23 teams 
conducted themselves in the Women's World Cup. And this 
contrasts sadly with the massive, massive deficiencies of the 
U.S. Soccer Federation, frightened to upset President Blatter's 
corrupt FIFA, while enjoying the elite lifestyle that he 
provides. We are here to discuss how American soccer relates to 
FIFA.
    I note the absence of your FIFA delegate, Mr. Sunil Gulati. 
That is one crucial question today. Where is Sunil? Where is 
he? He is the man who takes American values supposedly to FIFA 
and to CONCACAF, and he is not here to talk about it. It rather 
undermines the whole process I think.
    Anyway, I am an investigative reporter. I write books and I 
present documentaries for the BBC. I have worked with CBS and 
60 Minutes and with Frank Deford at HBO's Real Sports. I also 
have reported from war zones in Beirut, Chechnya, and Central 
America.
    I am not a sports reporter. Send me to the match, and I 
might get the score wrong. It is not what I do.
    I am very proud of being the only reporter in the world 
banned by Mr. Blatter because of my disclosures of his 
corruption over the last 13 years.
    Before stumbling on the FIFA lowlifes, I had experience of 
organized crime, filming nose to nose with the mafia in 
Palermo.
    Blatter's FIFA ticks all the boxes defining an organized 
crime syndicate: seizing and holding power, massive stealing, 
running rackets, compromising and outwitting the public 
authorities, and hiding their criminality behind the world's 
most popular game.
    After 7 years of probing these sleazebags and putting up 
with their legal threats and their attacks on my computers, I 
was invited to meet FBI special agents in London. Their 
business cards said ``organized crime.'' I was not alone 
anymore. The real people had arrived.
    In August 2011, I gave them financial and other documents 
that America's Chuck Blazer hid from the fans and the public.
    And by the way, you talked a moment ago about not having, 
Mr. Flynn, a representative of FIFA. Chuck Blazer was there 
since 1955. You were represented. Look who represented you. 
Look who U.S. Soccer was happy to have representing American 
values. I hope we can come back to that.
    Chuck Blazer had hidden all this financial information from 
the fans and the public. My source obtained them from the 
archives of CONCACAF, as you know, the regional body of 35 
footballing nations, including the USA. They were circulated 
privately to all Executive Committee members of CONCACAF, 
including U.S. Soccer who also suppressed them.
    U.S. Soccer had to know that Blazer and his fellow crook, 
Jack Warner from Trinidad--you know, fighting extradition at 
the moment--with the approval Blatter, were looting regional 
football and evading rightful taxes. But they looked away.
    I have got a long list here of the failings of U.S. Soccer 
with CONCACAF and with Blatter. I would be happy to present it 
to any of you and discuss it later.
    Now, if America's soccer leaders had taken action when they 
should have done, Blazer and Warner would have been in jail, 
Blatter seeking asylum in Zimbabwe, and the 2022 World Cup 
being hosted by the USA, not some graveyards in the Gulf.
    It only took the FBI and the IRS a few weeks to check out 
the information that I gave them. They arrested Chuck Blazer. 
He immediately turned informant, and FIFA has imploded.
    FIFA is now a smelly shell. That is all. It has no 
credibility. We do not want to know it. Nobody wants to know 
it. You know, once upon a time, FIFA officials would walk down 
the street with a FIFA blazer, the logo. I am from FIFA. I am 
important. Who would do that now? Who would dare do that now? 
None of them. And that is how we sum FIFA now.
    Blatter is determined to stay in power. I do not believe 
this nonsense about his going. Watch his words carefully. I 
have put down my mandate, but I will pick it up again. His hit 
men are working to eliminate rivals. His handpicked Ethics 
Committee are--I am running over time--to obey his 
instructions. His PR operation briefs the wire services that he 
is innocent. But this international sports leader can only 
travel to Doha, Russia, and stay in Switzerland. That is not an 
international leader.
    Now, what America can do is engage with clean, decent 
football associations around the world, create a new 
organization based in another land, and invite sponsors and TV 
networks to go with them. I cannot see Coca-Cola, McDonald's, 
and Visa preferring the remnants of Blatter's organized crime 
family.
    And there is one other crucial thing that U.S. Soccer 
should do. Some of you may remember that when the U.S. Olympic 
Committee was in disarray over the Salt Lake scandal 16 years 
ago, they called in Senator George Mitchell and Ken Duberstein 
to investigate where they had gone wrong with the IOC and make 
recommendations for reform. External, respected nonpartisan 
investigation.
    This Committee could help U.S. Soccer set up a similar 
independent committee to find out what on earth has gone so 
badly wrong and is being covered up.
    Also, U.S. Soccer could do what your government does, which 
is put everything online. A 990 form is inadequate. And then 
this new, reorganized, reinvigorated U.S. Soccer could really 
say to the world, look, this is how it is done. We are not 
America pushing you around. We are saying, but we can do it. It 
is all wide open. Join with us. An awful lot of the 209 
national associations will come with you.
    Finishing off, next Monday, Mr. Gulati, the absent Mr. 
Gulati, who I think he is treating you with contempt. I think 
he is treating U.S. Soccer, the men and women, the moms and 
dads, the people who run the line, the whole sport with 
contempt when he cannot come here and defend U.S. Soccer's 
activities in CONCACAF and in FIFA.
    And so he is going over to Zurich next week for a private 
meeting of what is left of the leaders of FIFA who are not in 
jail. And I urge and I hope everyone else would urge Mr. Gulati 
to today e-mail Blatter and say, when I get to Zurich, I want 
all your pay slips. I want to know everything you paid 
yourself, your perks, your bonuses, your per diems. I want it 
on the desk now because if it is not there, I am coming home 
and I am going to help America kickstart the reform. That is 
what you have got to do as a country to get some credibility 
back internationally.
    Thank you.
    [The prepared statement of Mr. Jennings follows:]

  Prepared Statement of Andrew Jennings, BBC Investigative Reporter, 
                    specialising in FIFA corruption
    Chairman Moran, Senator Blumenthal and Members of the Senate 
Committee on Commerce, Science, and Transportation.
    Let's start by honouring America's soccer players and the gracious 
way they--and the other 23 teams--conducted themselves at the Women's 
World Cup.
    That contrasts, sadly, with the deficiencies of the U.S. Soccer 
Federation, frightened to upset President Blatter's corrupt FIFA--while 
enjoying the elite lifestyle he provides. We are here to discuss how 
American soccer relates to FIFA. I note the absence of your FIFA 
delegate Mr. Sunil Gulati.
    I'm an investigative reporter. I write books and present 
documentaries for the BBC. I have worked with CBS Sixty Minutes and 
with Frank Deford at HBO's Real Sports. I have reported from war zones 
in Beirut, Chechnya and Central America.
    I am not a sports reporter; send me to the game and I may get the 
score wrong.
    I am proud of being the only reporter in the world banned by 
Blatter because of my disclosures of his corruption over the last 13 
years.
    Before stumbling upon the FIFA lowlifes I had experience of 
Organised Crime, filming nose to nose with the Mafia in Palermo.
    Blatter's FIFA ticks all the boxes defining an OC syndicate. 
Seizing and holding power; massive stealing; running rackets, 
compromising and outwitting the public authorities. Hiding their 
criminality behind the world's most popular game.
    After 7 years probing these sleazebags and putting up with their 
legal threats and attacks on my computers I was invited to meet FBI 
Special Agents in London. Their business cards said Organised Crime.
    In August 2011, I gave them financial and other documents that 
America's Chuck Blazer hid from the fans and the public. My source 
obtained them from the archives of CONCACAF, the regional body of 35 
footballing nations including the USA.
    These were circulated privately to all executive committee members 
of CONCACAF, including U.S. Soccer who also suppressed them.
    U.S. Soccer had to know that Blazer and his fellow crook Jack 
Warner from Trinidad, with the approval of Blatter, were looting 
regional football and evading rightful taxes. But they looked away.
    If America's soccer leaders had taken action Blazer and Warner 
would have been in jail, Blatter seeking asylum in Zimbabwe and the 
2022 World Cup being hosted by the USA, not some graveyards in the 
Gulf.
    It only took the FBI and the IRS a few weeks to check out the 
information I gave them. They arrested Chuck Blazer. He immediately 
turned informant and FIFA has imploded.
    FIFA is now a smelly shell. Blatter is determined to stay in 
control of this irredeemably corrupt organisation. His hitmen are 
working to eliminate rivals. His handpicked Ethics Committee obeys his 
instructions.
    His PR operation briefs the wire services that he is innocent, knew 
nothing and it is all the fault of others. That is totally untrue.
    This international sports leader can only travel to Russia and 
Qatar, fearing arrest elsewhere. He will resist reform--but we need not 
waste time on such a barren exercise.
    America can engage with the clean decent football associations 
around the world, create a new organisation housed in another land and 
invite sponsors and TV networks to come with them. I cannot see Coca-
Cola, McDonalds and VISA preferring the remnants of Blatter's Organised 
Crime family.
    When the U.S. Olympic Committee was in disarray over the Salt Lake 
Olympic scandal 16 years ago they called in Senator George Mitchell and 
Ken Duberstein, President Reagan's former chief of staff, to 
investigate where they had gone wrong with the IOC--and make 
recommendations for reform.
    This committee could help U.S. Soccer set up a similar independent 
review of their missteps at CONCACAF and FIFA
    One urgent change must be U.S. Soccer adopting online transparency 
to the standard of the U.S. government. Then this newly invigorated and 
publicly responsive sports organization can start lobbying foreign 
bodies to join them following a moral path.
    Next Monday the serpentine Blatter presides over a meeting of those 
members of his executive committee not in jail. U.S. Soccer's Sunil 
Gulati will attend.
    I urge that tomorrow Mr. Gulati e-mails Blatter demanding that when 
he arrives at the FIFA boardroom he finds on his desk a list of what 
Blatter has paid himself for the last 5 years in salary, bonuses, 
allowances and perks. Everything. Two years ago Mr. Gulati said he 
would try to get this information. We are still waiting.
    If Mr. Blatter still refuses to reveal how much he extorts from 
FIFA Mr. Gulati must walk out of this joke meeting, come home and 
contribute to the real international reform process.

    Senator Moran. Thank you, Mr. Jennings.
    Let me start with Mr. Flynn in asking a question. You heard 
Mr. Jennings just say that U.S. Soccer had to know. So the 
question is, what did U.S. Soccer know? What should you have 
known? And in particular, with the indictments that allege 
racketeering, bribery, wire fraud, money laundering, what is 
the reaction of the U.S. Soccer Federation to that, the charges 
at FIFA, the executives and board members? And also, what does 
the U.S. Soccer Federation know about CONCACAF in similar 
circumstances? It is perceived as the most corrupt of the very 
regional associations. What does U.S. Soccer Federation know?
    Mr. Flynn. Thank you, Senator.
    I knew nothing about any corruption.
    Senator Moran. Let me interrupt just one moment, Mr. Flynn. 
When you say you knew nothing, you speak just for you 
personally?
    Mr. Flynn. I would say I or anybody that I have worked with 
has not brought anything to my attention, cold, hard facts 
regarding corruption within FIFA or CONCACAF.
    That being said, there are a couple of things I would like 
to point out. Mr. Blazer has not been involved with U.S. Soccer 
since 1986. He has been a member of CONCACAF and FIFA, but 
not--I repeat--not U.S. Soccer since 1986.
    In terms of Mr. Blatter and Mr. Warner's activities, I 
would like to point out that those were private, individual, 
secret transactions that with the full resources of the 
Department of Justice and the FBI took 4 years to bring to 
light. We are a soccer organization with our greatest focus on 
developing all aspects of our sport in this country.
    So I wanted to point out that those private transactions 
also were for regional sponsorship and regional broadcast 
rights. That has nothing to do with U.S. Soccer and our rights 
and our TV and our sponsorship. So I think that is an important 
point of distinction I would like to make.
    Senator Moran. Mr. Flynn, thank you.
    Let me ask a follow-up question then to that. So when the 
U.S. Department of Justice, the U.S. Attorney's Office 
announced indictments, you and your colleagues at the U.S. 
Soccer Federation would be surprised that there would be some 
activity occurring at FIFA or CONCACAF that would result in 
indictments. That would be a surprise to you?
    Mr. Flynn. Senator, I was not aware of any part of that 
investigation of the Department of Justice.
    Senator Moran. But the fact that someone was indicted 
surprises you?
    Mr. Flynn. I just was not involved. And my focus and that 
of my day-to-day focus is to stay focused on the domestic side 
of our business. So I just did not have any knowledge nor did 
anybody that I work with have any knowledge of it.
    Senator Moran. Let me try to tie something together because 
it may be confusing as to why we are having a hearing that 
involves Mr. Bery, for example. My question perhaps to you, Mr. 
Bery, but others as well, Mr. Hershman, Mr. Jennings, even Mr. 
Flynn--we have heard Mr. Bery's testimony about the conditions 
involving the preparation for the 2022 soccer World Cup. What 
is the relationship between the testimony that we are hearing, 
Mr. Bery, about corruption, bribery, racketeering, criminal 
activity related to FIFA and the findings that your 
organization has made in regard to what is going on in 
preparation for that World Cup? Are these two contrasting kinds 
of stories that do not belong together or are they intimately 
tied to each other?
    Mr. Bery. Thank you, Chairman, for the question.
    At the end of the day when FIFA made a decision to grant 
the bid for the 2022 World Cup to occur in Qatar, it took 
responsibility for the human rights impacts of that decision.
    Senator Moran. How can you say that? Why is that true?
    Mr. Bery. Because FIFA, as an international organization 
with $1 billion plus in reserves, has a responsibility under 
U.N. principles to ensure that its operations do not turn a 
blind eye to or directly involve serious human rights abuses. 
And it is pretty clear that human rights abuses and labor 
exploitation are rampant in Qatar today. Not only that, but 
Amnesty International's latest report shows that the Government 
of Qatar has yet to do anything serious or substantial about 
the basic labor exploitation there.
    So the question remains as to why it was that FIFA 
provided--why it was that FIFA did not go more deeply into 
these questions of labor exploitation in the process? Now, FIFA 
has said at this point in time that in 2026, for the 2026 
process, they are going to incorporate human rights concerns. 
But why has it taken until the 2026 process for these questions 
to be raised?
    Senator Moran. Mr. Jennings, let me ask you. Is there a 
relationship between what you describe in your testimony and 
the testimony that Mr. Bery has describing conditions leading 
up to the preparation of 2022? How do they relate?
    Mr. Jennings. Take a step back. U.S. Soccer has its 
failings. So do the leaders of English soccer. They should have 
known better than ever to have bid for that World Cup because 
we all know in the business that you have to pay to play. And I 
do not think the U.S. pays bribes. I am pretty sure the English 
do not. You do not get in a race where you are going to be 
bribed off the planet.
    Let us bear that in mind. It was a dirty decision to put a 
World Cup on a strip of sand that was broiling. People would 
die if there was a summer tournament there. FIFA knew. And you 
have to wonder why certain people, despite that of FIFA, voted 
for the World Cup to go there.
    And it has got worse. And at another meeting now, knowing 
that cannot happen, what Blatter calls stakeholders because he 
has all these friends and no fans--are now moving it to 
November-December of the World Cup year. Now, if you want to 
die young, come to England and stand outside Arsenal, 
Manchester City, Manchester United, Liverpool, Everton, all the 
big clubs. The fans come out and say, hey, we are going to stop 
you having football for 7 weeks because Jack Warner took the 
money. I hope it is a painless death. You cannot walk into 
somebody else's sport culture and just take it away.
    But that is what Blatter is doing now. And who is 
questioning him? I do not see any of the officials from U.S. 
Soccer saying, no, no, no, we are friends with the English and 
the Germans and the Dutch and all the other western European 
federations that are going to have to stop their game because 
of the dirty slime bags at FIFA. That is the background to it. 
The money went in it from somewhere. I am not saying where it 
went in as long as the investigation is still going on. But it 
went in, and the lowlifes on the FIFA Executive Committee voted 
for something which is ending up with the death of migrant 
workers.
    I just would say one other thing here. We have a saying in 
European football. When officials, administrators cannot 
remember what happened--I do not know. I was not there. I 
cannot remember--we say, oh, yes. When they were younger, they 
must have headed that big wet football too many times because 
the scandals of CONCACAF--and Jack Warner's ticket rackets go 
back--public knowledge--to 2002, again in 2006, again in 2010, 
richly documented that racketeering was a way of life for 
CONCACAF. But apparently that news never reached the Chicago 
offices of the U.S. Soccer Federation.
    Senator Moran. Mr. Jennings, let me turn to Senator 
Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Mr. Flynn, I appreciate your being here today. I understand 
it is your testimony that you had no knowledge about this 
corruption before May of this year when the Department of 
Justice issued its indictment. Is that correct? You had no 
knowledge?
    Mr. Flynn. That is correct.
    Senator Blumenthal. Did you have suspicions?
    Mr. Flynn. There were moments I would describe, if I had a 
level of discomfort, I would not participate and I would just 
get myself out of any situation that offered any level of 
discomfort to me.
    Senator Blumenthal. So there was evidence that caused you 
to remove yourself from discussions or meetings?
    Mr. Flynn. I would not say evidence. I would say I think it 
was the comfort level.
    Senator Blumenthal. And when did that lack of comfort level 
begin?
    Mr. Flynn. I could not pinpoint any particular time.
    Senator Blumenthal. Years before the indictment. Correct?
    Mr. Flynn. I would not necessarily say years. It would be 
hard to pinpoint the time.
    Senator Blumenthal. Months?
    Mr. Flynn. I think it would be fair to say greater than 
months because once again it would be hard to pinpoint exact 
time frames.
    Senator Blumenthal. Did you make any effort to investigate?
    Mr. Flynn. If there were cold facts, I would have brought 
that to the attention of the appropriate people. There was 
nothing in the way of any facts that I could take to anybody 
else and obviously would consult our outside counsel. But that 
is as far as I would take because it was something--as I said, 
it was a discomfort level.
    Senator Blumenthal. But you made no effort to investigate 
and your outside counsel did not tell you to investigate.
    Mr. Flynn. No. I just passed along my level of discomfort.
    Senator Blumenthal. Would you agree in retrospect that U.S. 
Soccer acted inadequately to investigate or prevent or stop the 
ongoing, blatant criminal wrongdoing at FIFA?
    Mr. Flynn. I would not say that we would do it differently. 
What our focus has been is trying to really have two choices. 
We are one of 209 national associations. And we have to, 
really, at the end of the day, find a way to participate in a 
manner consistent with our mission and our core values. And we 
think one of the ways to do that is--and starting in 2013, we 
finally had somebody on the FIFA ExCo that was with U.S. 
Soccer. That was a start in terms of getting a louder voice and 
a seat at the table.
    Senator Blumenthal. Let me just interrupt because I think 
what you are stating is fairly well known history. And I want 
to ask about officials at U.S. Soccer came to learn and, very 
bluntly, why those officials did so little until the Department 
of Justice indicted Chuck Blazer and others who had 
longstanding ties to U.S. Soccer, particularly in light of the 
lack of comfort level that you had. In retrospect, what is the 
explanation?
    Mr. Flynn. I was aware of some level of discomfort, but it 
was all I think in general, a general feeling. So I had no hard 
evidence. And we wanted to continue to participate and try to 
influence the organization, one of 209 members.
    The second choice we have is to opt out and to pull out. 
And with that comes a series of ramifications. We no longer 
have a seat at the table. We no longer are involved in the 
competitions, Olympics, World Cups, any competitions for our 
youth teams, our paralympic teams. And it has far-ranging 
ramifications for U.S. Soccer and soccer and the business model 
of soccer in our country, which we have, through ownership of 
our professional ranks in all three divisions, invested 
hundreds of millions of dollars, if not billions of dollars, 
building the sport over the last 20 years so we can continue to 
build and we can compete on the field in such a manner that we 
just accomplished on the women's side for the men.
    Senator Blumenthal. I understand those two options. But was 
there not a third, which is to begin asking questions, begin an 
inquiry, begin shining a light, begin blowing the whistle, 
begin essentially holding accountable officials who might be 
guilty--and we now know they are--of wire fraud, conspiracy, 
money laundering, bribery that directly impacted the quality 
and integrity of the sport that you are responsible for 
upholding.
    Mr. Flynn. Well, we did support the 2011 Ethics Committee, 
as I mentioned in my opening remarks. We pushed for full 
disclosure of the full report. As I said, we front and center 
were one of six nations that nominated Prince Ali to run 
against the longstanding Mr. Sepp Blatter with great peril for 
the chance of hosting in 2026 and having the FIFA Executive 
Committee seat. We continue to feel that that is a proper 
course of action to reform FIFA.
    Senator Blumenthal. And I want to make clear, Mr. Flynn, 
that my comments are directed against the collective ``you,'' 
not you personally, the executive officers, the board members, 
and the organization of the U.S. Soccer Federation.
    And I want to ask you, as a matter of fact, why Mr. Gulati 
declined the invitation to be here today?
    Mr. Flynn. When the notice came of the hearing, we 
anticipated rather broad and specific questions potentially, 
and it was determined with outside counsel that I would appear 
before the Senate Subcommittee hearing.
    Senator Blumenthal. What is the reason that Mr. Gulati did 
not?
    Mr. Flynn. I think there was a comfort level that I had 
more knowledge of the day-to-day operations in the event there 
were questions related to that.
    Senator Blumenthal. Do you not think he has an obligation 
to answer the questions that we have been directing to you?
    Mr. Flynn. Senator, I would answer if you are not 
comfortable with my answers, we would be more than happy to 
respond in writing to your staff anything directly related----
    Senator Blumenthal. Will you commit that Mr. Gulati will 
answer these questions?
    Mr. Flynn. I will certainly do my best to do that. Yes, 
sir.
    Senator Blumenthal. Thank you.
    Just a couple more questions. What is Sepp Blatter's 
continuing role in FIFA?
    Mr. Flynn. The best of my understanding, there is a special 
meeting the 20th and 21st, next Monday and Tuesday. From that, 
they have to do a 4 month notice to move forward, and there 
would be a new election for a president.
    Senator Blumenthal. Will U.S. Soccer take the position that 
he should be, in effect, excluded from FIFA?
    Mr. Flynn. Our position I think was pretty clear when we in 
the last election nominated and supported Prince Ali. I do not 
know who the candidates are. I do not think anybody does yet. 
But rest assured, we will look at all of the candidates and 
their platform from human rights to corruption to reform before 
we make our decision.
    Senator Blumenthal. One last question. Do you not believe 
now that U.S. Soccer has a responsibility to do more--its 
silence in my view has been deafening in many respects--to 
expose the wrongdoing and condemn it?
    Mr. Flynn. I would like to address or answer your question. 
I think a real prime example of what we have done is the recent 
reform of CONCACAF. Those were sweeping reforms from 
independent directors to greater transparency. We think that is 
a footprint that we would like to bring forward to FIFA, 
recognizing that we are one of 25 on the FIFA ExCo--Executive 
Committee, excuse me--and one of 209 nations within the FIFA 
organization itself. So we pride ourselves in our leadership. 
We also understand at times the limited capacity that we have 
for reform.
    Senator Blumenthal. My time has long expired, and I am 
hopeful that we may have another round of questions. I want to 
defer to Senator Daines at this point.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Senator Blumenthal.
    Mr. Flynn, just to follow up on some of the questions that 
Senator Blumenthal was asking, how many years have you served 
as the CEO or Secretary General of U.S. soccer?
    Mr. Flynn. Roughly 15 years.
    Senator Daines. Fifteen years.
    And I understand Mr. Blazer--the indictments--it was Mr. 
Blazer and 14 others. Is that correct?
    Mr. Flynn. I could not tell you the exact number.
    Senator Daines. It was more than 10, yes.
    You mentioned the cold, hard facts--not having cold, hard 
facts and at times having discomfort. I am going to step back. 
In an over 15-year career--and we are going to get to the 
happier part of this here about what happened to Women's 
Soccer, and congratulations for that, by the way. You need to 
be recognized. Truly a tremendous accomplishment.
    Mr. Flynn. Thank you.
    Senator Daines. But regarding the discomfort that you felt 
at times, if I can just step back, because perhaps there was a 
line crossed--if we look at what the indictments read, the 
bribery, the racketeering, and so forth, can you tell me about 
a time when you experienced discomfort and you stepped back of 
what you were seeing?
    Mr. Flynn. As I stated, the discomfort was kind of in 
generalities. I will tell you in terms of how Mr. Warner, being 
one of 41 nations, 35 voting nations in CONCACAF, how he ran a 
meeting and went through an agenda and had hand votes versus 
sealed votes--those are the kinds of discomforts that led me to 
some level of discomfort.
    Senator Daines. In your distinguished 15-year career 
leading the organization, how long ago was it when you first 
started sensing perhaps something is wrong, perhaps a few bolts 
are loose here, perhaps there is discomfort, looking at the 
indictments here? These things typically just do not happen 
overnight. This was probably building. When did you start 
having some concerns?
    Mr. Flynn. It would be hard to pinpoint. As I said, they 
are generalities and they related to the manner in which Jack 
Warner and Mr. Blazer ran their meetings and how I think U.S. 
Soccer would like to have a greater influence, but being one of 
35 voting nations--and mind you, Mr. Warner came from the 
Caribbean, and 25 of those 35 votes are from the Caribbean--it 
just gave me a level of discomfort that we were not going to 
make progress in terms of transparency and some of the things 
that I would have preferred as to how U.S. Soccer operates.
    Senator Daines. And did you ever express any of those 
concerns to Mr. Blazer?
    Mr. Flynn. I did not.
    Senator Daines. Is there a reason, if you were seeing these 
issues, knowing what you know now, why you might not have 
confronted him or perhaps asked why he is doing what he is 
doing?
    Mr. Flynn. Generally speaking, it falls into that two-
choice equation and framework. Trying to participate, one of 
the key things we tried to do, as an example, is try to host 
Olympic-qualifying and host events. And we have to, at times, 
balance that with the potential to opt out. And with Mr. 
Blazer, I just felt that we had other things to do that could 
help build our sport as well, and there was some concern that 
if I brought it to Mr. Blazer's attention that I may feel some 
level of discomfort in a different way.
    Senator Daines. And did you see other peers experience 
discomfort in other ways who maybe tried to confront Mr. 
Blazer?
    Mr. Flynn. It would be hard to categorize it that way. But 
if we reached out and when we reached out to talk to other 
national associations, other federations, once again we were 
one of 41 or one of 35 voting members. And there was not 
anybody else that had maybe the same feeling that I did on a 
personal level or that we did as an organization. So we 
operated as best we could within the framework.
    Once again, we are in CONCACAF by virtue of being a member 
of FIFA, and we felt we had to find a way to participate, work 
our way through, and fortunate enough, by a very close vote, 18 
to 17, Mr. Gulati was elected to the FIFA ExCo seat in April 
2013. And we think that was a step in the right direction, a 
step toward reform, and that is the model that we felt was in 
the best interest of moving our sport forward in a very 
difficult and tricky environment sometimes.
    Senator Daines. I have one final question. Then I am going 
to wrap up here.
    Back on women's soccer here, on a happier note, the most-
watched soccer match in U.S. history, as many television 
viewers as game seven of the 2014 World Series.
    I was looking at the financial numbers here with the United 
States Soccer Federation, and just looking at the investments 
in the men's national team versus the women's national team--I 
say that as a father of two sons and two daughters. You 
probably see where I am headed with this. The spending on the 
men's national team was up 50 percent fiscal 2014 over 2013. 
Yet, the spending for women's soccer actually went down, I 
think 13 percent of fiscal 2013 versus 2014.
    Just in broad strokes, any reason why the men's soccer 
would have been up 50 percent and the women's down 13 percent?
    Mr. Flynn. Well, let me first say thank you for your 
comments about our women's national team. We are quite proud of 
our track record with women's soccer. We are recognized as a 
world leader. And I give you a few small facts. U.S. Soccer's 
write-in campaign is the reason that women's soccer was 
admitted to the Olympics in 1996 and continues to this day. We 
are the top paid team in the world by far on the women's side. 
In 2003, when we hosted the Women's World Cup, there were no 
winnings for any team, first, second, third, fourth, whatever. 
The winnings this time was $2 million. We continued to push 
FIFA in the right direction.
    Related to your direct question, if that was 2014--I do not 
have the exact numbers in front of me, but it could be--and I 
will be more than happy to follow up and provide in writing--it 
could be because of the 2014 Men's World Cup is a peak year and 
would create more activity. So I do not know the exact----
    Senator Daines. It was what I was kind of sensing looking 
at it, but it might be worth a follow-up, just getting a sense 
of investments because, hopefully, we will continue to invest 
in our women's soccer program, as you already have. But the 
men's program is growing quite significantly. Women's is coming 
down somewhat. And we are just so proud of what the women did 
and want to make sure we continue to invest appropriately.
    Mr. Flynn. Thank you.
    If I could add, as a father of three daughters, we are 
quite proud at U.S. Soccer that, unfortunately, with two failed 
professional women's leagues, 3 years ago we took it upon 
ourselves as a federation. We actually run the women's league. 
Rather than fund 25 to 30 women and cut the team down to 23, we 
are providing a first division women's soccer league for 180 
women's professional soccer players in this country. And we 
think with the success that we had in Canada 10 days ago that 
we will have additional ownership and investment as well.
    Senator Moran. Let me interrupt. We are about out of time. 
Thank you for that reply.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. Thank you, all of 
you.
    I wanted to follow up on some of Senator Daines' questions. 
And of course, we are all very proud of the U.S. women's team. 
And are you aware that we are putting together a resolution 
that has been put in from the Senate asking for equal 
compensation between men and women in FIFA on the soccer?
    Mr. Flynn. I am not aware of that.
    Senator Klobuchar. Well, be ready for it.
    And I just think, given the U.S.'s emerging role in FIFA 
and given what we have seen in the last few years with the 
corruption, I just think that while I appreciate that you say 
changes are being made, I do not think enough changes are being 
made. And I have some additional dollars from what Senator 
Daines was talking about.
    So the U.S. women's team for the victory was compensated $2 
million. Is that right?
    Mr. Flynn. That is correct.
    Senator Klobuchar. And the men's team, the Germans' team, 
in 2014 was compensated $35 million. Is that right?
    Mr. Flynn. I think it was $32 million, but it might be $35 
million.
    Senator Klobuchar. $32 million, OK. So it is $2 million 
versus $32 million. And the losing team in 2014, which was the 
U.S. men, got $8 million.
    Mr. Flynn. I believe it was $9 million.
    Senator Klobuchar. $9 million.
    OK. So we have a situation where the losing team actually 
got more than four times the amount of money as the winning 
women's team.
    Mr. Flynn. Correct. But let me point out, the winnings--
just as a point of reference I think or background, the 
winnings payments go to the federations. So the payment to our 
players are guided and governed by separate collective 
bargaining agreements between the men and women. So that is one 
point. I think as a matter of background, it is important.
    Senator Klobuchar. OK, but just to go back to this, you 
know, sometimes they say, well, women's sports do not get as 
much attention. But we have a situation here where there is 
record attendance and TV ratings--Fox broke TV records in the 
U.S.--making the World Cup final the most watched soccer 
telecast ever in the U.S., male or female. Yet, you have this 
disparity, $32 million versus $2 million. And my argument would 
be that certainly the U.S. should be taking a lead in pushing 
for more equality here.
    In tennis, they have equality. Wimbledon last year decided 
to have equality in prizes. And it would seem to me like 
Wimbledon seems pretty old school. And soccer is supposed to be 
so like, you know, nouveau and upscale and just the cool 
progressive sport, and yet you have this disparity that I just 
think is outrageous.
    Mr. Flynn. We do agree and we will continue to push for 
greater payments on the women's side, without question.
    Senator Klobuchar. OK. I really appreciate that.
    Mr. Flynn. Thank you.
    Senator Klobuchar. Could you comment on why the Women's 
World Cup was played on artificial turf when the Men's World 
Cup was played on grass?
    Mr. Flynn. Sure. I will give you a little bit of 
background. In order for Canada to receive the bid, Senator, it 
went through a bid process. Canada was the only nation that 
submitted a bid to host. As part of that bid, from our point of 
view, unfortunately, the bid included playing on artificial 
surfaces. It is not something that we liked. We appealed to 
FIFA and to the Canadian Soccer Association to no avail. When 
our players came to us and wanted to participate in some legal 
activity, we fully supported that.
    And at the end of the day, we posed the question to our 
women's team: if this is what we are faced with, do we want to 
move forward and play or do we not want to play? And the women 
unanimously decided it is not perfect. We do not like what they 
felt--and we agreed--was a lack of respect. But we were moving 
forward, and in many respects, I think everybody would say we 
are pretty happy we moved forward under not the best of 
circumstances. But coming away with our third World Cup, it was 
worth the investment.
    Senator Klobuchar. And the salary range. I will just end 
with that. The salary range of women and men. So I just got his 
from our staff. So men, the minimum salary is $50,000. Is that 
true?
    Mr. Flynn. $50,000 for----
    Senator Klobuchar. For a male player?
    Mr. Flynn. In our collective bargaining agreement or----
    Senator Klobuchar. And then we have women making from 
$6,000 to $30,000.
    Mr. Flynn. I am not sure what the reference is for that.
    Senator Klobuchar. This is professional soccer.
    Mr. Flynn. Yes. I cannot speak to major league soccer, if 
that is what the reference point is. It is guided and governed 
by a collective bargaining agreement.
    I can tell you the women's national team players to play in 
our league is well above $6,000. And to play for their country, 
as well as their clubs, is well above $6,000. I would be more 
than happy to follow up and give you more detail on that.
    Senator Klobuchar. Just I view this whole thing going back 
to just the corruption and everything that has happened--and my 
colleagues have done a good job. I am sure there is a lot more 
that Mr. Jennings would like to talk about. Going through all 
that as a former prosecutor, I find the whole thing abhorrent, 
and I am glad that these cases are being pursued. But it just 
seems in general--and the reason I bring up this women's issue 
is the U.S. has had a shorter history on the international 
soccer stage but has significant pull internationally, 
particularly with major corporate sponsorships of U.S. 
companies. And so what I am advocating here is using that pull 
for not just reforms and transparency in the international 
governance structure so that we do not see this corruption and 
that it gets taken care of, but also so that women get treated 
fairly and equally as men because, like I say, if they can do 
it at Wimbledon, they can do it with soccer.
    Mr. Flynn. Thank you, Senator. Could I make one point?
    We are seriously the strongest advocate, I think, for 
women's soccer in the world. And just as a point, there were 24 
teams in this year's World Cup. In 2011, there were 16. We were 
strong advocates and took a leadership position to expand.
    On the men's side, there are 32 teams that compete. So 
there is a greater number of games and a bit of a different 
commercial impact.
    But we continue to push FIFA and CONCACAF to expand the 
opportunities for women. And as a father with three daughters, 
rest assured it is top of mind with me every single day.
    Senator Klobuchar. Well, you can imagine how the women feel 
when we hear that our women players who everyone was watching, 
was so proud of, got less than a fourth of what the losing team 
did last year for the men. It is just not right.
    Mr. Flynn. It has been in the public a bit, but the women 
for playing in the World Cup and competing this year will 
receive over $300,000, just as a point of reference. I would be 
more than happy to give you additional information.
    Senator Klobuchar. All right. Well, I really appreciate it. 
Thank you. Thank you to all of you. And Senator Leahy is 
leading the resolution. So thank you.
    Senator Moran. Senator Klobuchar, thank you.
    Let me ask Mr. Hershman. You heard the testimony of Mr. 
Flynn who indicated that, as I would summarize his testimony, 
he is involved in the domestic side of the issues that were 
involving the U.S. Soccer Federation. And I think his testimony 
would reflect that he and his colleagues--no one reported to 
him any concerns or knowledge of any corruption, bribery, 
racketeering. I think his testimony would suggest that he had 
no--he was unaware of the activity that led to the indictments. 
That suggests to me--I do not know exactly what Mr. Flynn does, 
but he is the CEO.
    What is it that needs to change structurally that this kind 
of behavior at FIFA would be known by the U.S. Soccer 
Federation? What is missing?
    Mr. Hershman. Thank you, Mr. Chairman, for that question.
    I think you have to understand the nature of the beast. 
FIFA is like no other organization that I have had an 
opportunity to consult with on issues related to governance and 
compliance.
    I want to correct a statement that Mr. Bery had said 
earlier. FIFA is not an international organization. It is not 
an NGO. It is not a corporation. It does not follow any 
guidelines or standards. What exemplifies FIFA is a small 
clique of very powerful individuals whose self-dealing was kept 
very secret at the top level of the organization. It is no 
surprise to me that an individual federation like the U.S. 
Soccer Federation did not know, did not understand what was 
going on.
    This organization, as pointed out by the Justice 
Department, had systematic corruption. And for years now, for 
over 10 years, in the midst of many scandals and even going 
back before 10 years when Mr. Jennings was aggressively 
reporting on lack of transparency and accountability, the 
organization answered to one man and one man alone, and that 
man controlled this organization with an iron fist and an iron 
grip. And that was the president of the organization, Sepp 
Blatter. When he wanted someone to know something, he would let 
them know. Otherwise, they would be in the dark.
    And it is discouraging to me that President Blatter sits in 
that same seat today. Let there be no mistake. He has not 
resigned. He has said he will step aside when a new election is 
called. Well, he has said twice in the past in recent history 
that he would not run for office again and changed his mind. I 
am very concerned that he will do the same thing again, that 6 
months from now, he will say the reform initiative is now 
complete. I have succeeded, and the federations from Africa, 
the federations from Asia want me to continue. So I have 
decided to stay as president. That would be the worst thing 
that could happen for FIFA.
    Senator Moran. Therefore, Mr. Hershman, in your opinion 
your testimony is that the best thing that could happen to 
clean up FIFA is for the departure of Mr. Blatter?
    Mr. Hershman. Not only Mr. Blatter. There are dinosaurs in 
the Executive Committee that do not believe in reform.
    Let me say this. We are going to see next week at the 
Executive Committee meeting the FIFA Executive Committee adopt 
new reforms, reforms that we recommended years ago to be 
adopted and that were put aside. It is not what is on paper. It 
is not going to be the compliance program. It is not going to 
be the change in governance structure. It is going to be the 
culture of the organization that has to change. And you cannot 
have a change in culture unless you have people within and 
leadership that believe in ethics and values.
    Senator Moran. Let me ask you this then. What is the 
motivation for that change to occur? What needs to happen 
through the U.S. Soccer Federation, others around the globe 
today what we are doing here have any consequence on these 
issues? Because I assume that the opponent to change is 
financial. There is apparently significant amounts of money 
that surround FIFA, and those involved in this, what you 
described, culture. So what steps need to taken to overcome 
that culture today, tomorrow, and into the future?
    Mr. Hershman. We need to build a coalition. Number one, the 
sponsors have got to take--and not only the sponsors but the 
media outlets that bid on media rights--they have got to take a 
stand. When an individual athlete, be it Tiger Woods or be it 
Ray Rice, does something wrong, the first thing that happens is 
the sponsor walks away from that relationship. FIFA has been 
the subject of scandal after scandal after scandal, and no 
sponsors have taken the lead in withdrawing their support for 
FIFA based on those scandals. So the sponsorships have got to--
the sponsors and the media outlets have got to stand up and 
say, if you do not reform, if you do not do the right thing, we 
are going to walk away.
    The federations like the U.S. Soccer Federation have got to 
come together. Those with similar cultures, similar beliefs in 
transparency and accountability--and I do believe that that is 
the belief of the U.S. Soccer Federation--have got to come 
together from the bottom up and force change at the top.
    And finally, governments. Many governments provide 
sustenance to sports federations, not necessarily in the United 
States, but overseas governments spend millions of dollars in 
taxpayers' money supporting their domestic and international 
sports organizations. They have got to intervene and let them 
know that the time is ripe for change. Even here in the United 
States, while we do not spend taxpayer money on supporting our 
domestic sports organizations, the NFL, we provide them with 
tax-exempt status--I am sorry--with exception from antitrust 
laws, which is worth a great deal of money to them. And so 
governments have also got to influence sports organizations to 
undertake transparent and accountable governance.
    Senator Moran. Let me ask you, Mr. Jennings. What needs to 
transpire? It was the same question I asked Mr. Hershman. What 
needs to transpire today, tomorrow that would give you hope 
that the corruption that you have described would be resolved 
internally within FIFA? And perhaps your answer, based upon 
your testimony, is FIFA has no future. It has to be replaced. 
Is that different than what Mr. Hershman is saying?
    Mr. Jennings. I would differ very mildly from Michael. Yes, 
FIFA has got to be resolved. They do not want reform. We use 
words like ``reform.'' They think boring. Everything works 
fine. OK, if you get arrested--Mr. Gotti went on for years as 
members of his family got picked off, but the operation went 
on.
    And I would just like to come back to CONCACAF because I am 
quite astonished what I hear about them. They are going to have 
a reform meeting. They have had one. Well, that would be the 
third one I think, would it not, because when Mr. Blazer and 
Mr. Warner were out--thank goodness--they had reforms. They had 
reform meetings. They pledged transparency and they brought in 
two men, Jeffrey Webb from Cayman and Mr. Sanchez, is it, from 
Traffic, from the corrupt sports marketing company, and a few 
years later, the FBI are going, can you step this way, please, 
sir?
    So now they are doing it again. And who is there? Is Horace 
Burrell there, the man who put his girlfriend in to vote at the 
FIFA Congress in 1998. I have got a document if you want to see 
it. They are so corrupt.
    But do you know the U.S. Federation has been cowardly 
because little Peter Jenkins, you know, was from St. Kitt's, 
not a powerful country, had the guts to stand up and say Jack 
Warner is stealing tens of millions of dollars of FIFA money 
that should be developing the sport in the Caribbean. He had 
the guts to say it. Warner and Blazer turned their poison upon 
him. He just survived. But he had the courage to do it. Where 
was America?
    Senator Moran. Let me ask Mr. Flynn. In your testimony--I 
just made notes, so this will not be identical to what you 
said. But your testimony was that you could encounter a 
potential political impact. Yet, you indicated you opposed--the 
U.S. Soccer Federation opposed the reelection of Mr. Blatter.
    Mr. Flynn. I am sorry. I did not hear you.
    Senator Moran. I am sorry. You indicated in your testimony 
that the U.S. Soccer Federation opposed, voted for someone 
other than Mr. Blatter, to chair.
    Mr. Flynn. To be the president. Correct.
    Senator Moran. And your testimony had something along these 
lines, and that could have caused potential political impact 
and our chances to host the World Cup. That suggests to me that 
there is an awareness that the decision about where a World Cup 
soccer match is going to be played is--that you would admit is 
not necessarily based upon the merits. If you are worried about 
a vote for the Chairman of FIFA having a consequence onsite 
selection, that suggests to me that you are aware that 
something is not above the board. Or am I overstating that?
    Mr. Flynn. Senator, I think it reflects a management style, 
and that is what I was trying to impart. Mr. Blatter wields, as 
others have said, a lot of influence in the organization, and 
taking our position to not only vote openly but to nominate 
Prince Ali and work very hard for his election, we know that 
that may come with some difficulties down the road in terms of 
seeking support for hosting the 2026 World Cup as part of Mr. 
Blatter's management style.
    Senator Moran. Thank you.
    Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Mr. Jennings, would you agree, based on your experience, 
that American corporate sponsors like Nike, McDonald's, Visa, 
and Coca-Cola have been in some sense enablers?
    Mr. Jennings. Inadequate? They have had terrible attacks of 
blindness. Have they not? When the rest of the world has been 
categorizing, listing corruption of FIFA and at CONCACAF and 
documented, the sponsors have said, oh, well, we only support 
the World Cup. We do not support FIFA. Well, is that not tough 
and brave of them?
    Senator Blumenthal. Maybe I should amend my question to say 
they certainly would be enablers now if they continue to be 
sponsors without insisting on reforms. Would you agree?
    Mr. Jennings. They should withdraw unless their money--the 
money that Herr Blatter likes so much should be withheld until 
something radical happens to clean up the sport in the interest 
of the grassroots.
    Senator Blumenthal. In fact, there is precedent, for 
example, in the way that Nike dealt with Tiger Woods following 
some of the revelations and public disclosure.
    Mr. Jennings. That is a very limited case, which got huge 
publicity because it dealt with the private life of a 
celebrity. It gets a lot of tabloid coverage.
    Senator Blumenthal. But whether it is private life and 
morality or in this instance public corruption, it should be 
addressed.
    Mr. Jennings. Oh, yes. And they have the capacity. They 
have the wealth. They have the brains and experience in their 
head offices from Beaverton to Atlanta to Chicago. And they 
have not done anything, and they should be trying to not 
justify. They should be apologizing because Mr. Flynn has 
talked a lot about the organization of American football--
soccer, not particularly relevant to the issues at hand about 
corruption of FIFA. Nevertheless, the moms and dads--my 
granddaughter plays football in the park in Seattle. You know 
the sort of people I am talking about, the families, the lower 
level, not just the stars of your male and female teams. They 
have been betrayed by an organization that suns itself in the 
glamour of these brilliant women and brilliant men--the men are 
doing better every World Cup, you have noticed--without doing 
it to say we are America.
    Senator Blumenthal. Mr. Bery, would you agree that American 
corporate sponsors have turned a blind eye to the alleged human 
rights abuses and potential deaths of migrant workers involved 
in human trafficking in the World Cup host nations. Should they 
have known? Did they know? Should they have done something?
    Mr. Jennings. You have just said it. I cannot cap that. Of 
course, the answer is yes.
    Senator Blumenthal. And, Mr. Bery?
    Mr. Bery. There has definitely been a startling lack of 
attention by many parties involved with FIFA and the World Cup 
to the serious problems of labor exploitation in Qatar today. 
Thousands upon thousands of foreign migrant workers in Qatar 
are forced into a terrible, terrible system that can lead up to 
forced labor in some cases. And it is time for the sponsors of 
the World Cup, it is time for the contractors and the 
businesses involved with the World Cup, as well as the host 
government itself, Qatar, to start taking action and doing 
something about this labor rights crisis.
    Senator Blumenthal. And they can have an impact, can they 
not, simply by virtue of their power of the purse and dollars 
and investment?
    Mr. Bery. The sponsors of the World Cup can definitely play 
a serious and constructive role in averting the labor rights 
crisis that is happening and the labor exploitation that is 
plaguing the construction for the World Cup in 2022.
    Senator Blumenthal. Mr. Hershman, do you agree?
    Mr. Hershman. I do agree. Look, these sponsors spend tens 
of millions of dollars to protect their brands. They themselves 
adopt governance programs and compliance standards that are 
best practice recognized globally. What does it say about them 
when they are willing to partner with organizations that have 
the record that FIFA has?
    Senator Blumenthal. And, Mr. Flynn, do you agree with the 
views that have been stated here?
    Mr. Flynn. We are happy to have the sponsors weigh in on 
this particular issue. As a point that is, I think, worth 
making from the U.S. Soccer perspective, when these things come 
to light, we have spent a lot of time with our sponsors 
explaining the difference between U.S. Soccer, CONCACAF, and 
FIFA. And I think the sponsors welcomed that opportunity of 
discussion with us. And we are happy if they weigh in on these 
particular items and issues.
    Senator Blumenthal. In your view, Mr. Jennings, is FIFA 
salvageable?
    Mr. Jennings. Salvageable? No, not at all. The corruption 
is so deeply embedded that if you cut the head off the snake, 
the rest of it would still be wriggling about. America has to, 
with its moral values, join with other countries with similar 
moral values and just say you stay there in Zurich. We are out 
of here. We are not going to be contaminated by sitting at your 
meetings with a bunch of organized crime experts. That is what 
FIFA is.
    And it was very good to see your FBI, your Department of 
Justice has assessed them like that. I thought that before, and 
I am very glad that they came aboard. You do not go to John 
Gotti and say, Mr. Gotti, there is really too much heroin on 
the streets of New York. Could you cut back on it a bit? Oh, 
thank you. A couple of keys come off the street. Well, that is 
all right. That is not how you dealt with it with the mafia in 
Boston. Is it? You went after them.
    Senator Blumenthal. Mr. Flynn, is FIFA salvageable?
    Mr. Flynn. I would address that by looking at the recent 
reforms of CONCACAF. They have been sweeping. I think they are 
real. I would like to give it hope that that footprint could be 
used. I am not an organizational expert like Mr. Hershman, but 
I think that is one option. And I can tell you the weekend of 
the Women's World Cup final, there were two other 
confederations from around the world that were represented in 
Vancouver that were very well aware of the sweeping reforms in 
place. And hopefully, that footprint is at least one step in 
the interim--excuse me--in the short term to reform FIFA.
    Senator Blumenthal. But apart from what CONCACAF has done, 
have you seen a tangible, meaningful effort at reform in FIFA? 
And does that not have to happen for it to be salvageable?
    Mr. Flynn. I have seen attempts, and unfortunately, they 
have come up short. And we continue, once again as one of 209 
nations, to build coalitions and work with likeminded national 
associations. We think given our structure, who we are, that is 
a good model for us to move forward. We are open to other 
discussions, as always, and we will be doing so with the 
candidates that are all running for the presidency moving 
forward for FIFA as well. I think that is going to be an 
interesting opportunity to see what platforms the candidates 
bring forward.
    Senator Blumenthal. Will U.S. Soccer withdraw from the 
structure that supports FIFA if it fails to take meaningful 
reforms?
    Mr. Flynn. As I said before, I think we have the two 
choices of participate or opt out. The opt out is very 
difficult and has severe ramifications to our model for the 
sport. So I would like to think that we can push for reform, 
given the new platform and level of intensity not only from the 
U.S. Senate but from other parts of the world that feel now is 
the time to make the many changes that need to be made in terms 
of reform for FIFA.
    Senator Blumenthal. Well, as a fan, as well as a public 
official, as a parent, let me just suggest that sometimes 
inaction and silence signal complicity. And there will be a 
point where, in effect, U.S. Soccer is complicit in the ongoing 
lack of reform or action. You may have no direct over it, but I 
respectfully suggest that that may be something you want to 
consider more seriously.
    Let me ask whether you will commit to U.S. Soccer 
conducting an independent inquiry, as happened in the wake of 
the Salt Lake City scandal.
    Mr. Flynn. Senator, we will cooperate with any inquiry that 
is brought to our attention.
    Senator Blumenthal. Well, again, I am suggesting that you 
take action, that U.S. Soccer take action to conduct the 
inquiry. You certainly have the resources and, again, I 
respectfully suggest you have the responsibility.
    Mr. Flynn. I think if one of 209, whether we initiated 
that, I think it would be safe to say we are going to need the 
assistance and help of other likeminded nations. So we are 
committed to certainly have those dialogues and those 
discussions.
    Senator Blumenthal. Are you committed to seek such an 
inquiry?
    Mr. Flynn. We are committed to work with other national 
associations to reform FIFA.
    Senator Blumenthal. My time has expired.
    I have additional questions, but I have to go vote. We are 
sort of staggering our terms here. If my chairman will take 
over and ask sufficient questions, I will see you again. Thank 
you.
    Senator Moran. Thank you very much for your patience, and I 
think there are some other members who want to join us. But 
this may turn out to be our last round. There is another 
committee hearing in this room later this afternoon.
    Let me go back to an issue that I mentioned in my opening 
statement and explored a moment ago with Mr. Bery because I do 
not want this issue of loss of life to get lost in the 
conversation about governance. I think they are related. So I 
am not trying to prioritize one over another, but I want to 
make certain that as a result of this hearing, there is an 
awareness by Americans, by the world about what you have 
discovered in your investigation in the activities leading up 
to the games of the future.
    Let me ask you, Mr. Bery, again if you want to describe in 
more detail the findings of what is transpiring there and what 
your request would be for us to make certain that these 
practices come to a conclusion. What role can we play as the 
United States?
    Mr. Bery. Thank you, Chairman.
    Amnesty International's report, ``Promising Little, 
Delivering Less,'' is the latest report that goes into the 
massive problem of labor exploitation in Qatar. The problem, as 
we have heard, starts with laws that prevent migrant workers 
from leaving their employers or leaving the country when they 
are put in situations that rise to even the risk of starvation. 
But it goes beyond that. As you have alluded to, Chairman, 
within Qatar today there are serious health risks and a lack of 
accountability and due diligence when it comes to the sites 
where workers, foreign migrant workers, are doing the hard work 
and putting in the sweat of all of the construction, the 
hundreds of billions of dollars of construction that are going 
on in Qatar today. There have been numerous reports about 
deaths that the governments of India and Nepal have reported 
that in 2014, over 400 of their nationals in Qatar have died in 
a whole host of ways and for a whole host of reasons.
    What is highly problematic is that the Government of Qatar 
has not put in the effort to do a serious investigation as to 
how foreign migrant workers are dying in Qatar and why. This 
lack of any sort of investigative interest or effort by the 
Government of Qatar reveals potentially a lack of interest in 
finding out the answers, as well as the next steps to solving 
the problem. The Government of Qatar needs to take substantive 
steps to investigate the deaths that are happening in Qatar 
today, deaths that have ended the lives of many foreign migrant 
workers who came to Qatar from many parts of the world simply 
to earn money and to send the money back home to communities 
and families in poorer parts of the world where they do not 
have the employment opportunities that they need.
    Senator Moran. Let me ask Mr. Jennings an additional 
question. You are our witness from outside the United States. 
What influence do you think that America has in regard to 
reforming FIFA?
    Mr. Jennings. I would rather say ``change,'' but otherwise 
we are agreed.
    Well, I have certainly learned today that America is a 
terribly unimportant, little country, that is terrified of 
countries like Guinea-Bissau not agreeing with it. When the 
United States Olympic Committee realized it had a massive moral 
problem over its relationship with the crooks at the 
International Olympic Committee, you did not go and ask anybody 
else. You do not have to go and ask the rest of the world is 
all right if we have an inquiry in America into our own people. 
Please. I find this very dispiriting about this view of America 
as being gutless because that is what is being suggested. Get 
on and do it. Do not ask permission of some other countries. It 
is your country and you have screwed up with FIFA and CONCACAF.
    I hear the talk about reforms. I do not believe it from 
CONCACAF. Was Horace Burrell there, the same bunch of crooks 
who have been there for 20 years?
    But you can do it. It is not that you have got nuclear 
weapons that matters. You have got the sponsors. You have got 
the media. You have got the moral power of this huge country, 
and Europe will come with you like a shot. Western Europe will 
be straight in with you saying, can we join as well as well, 
please? They just needs some leadership and they are not 
getting it.
    Senator Moran. Mr. Jennings, you must think there is a 
sufficient value in this hearing that is taking place right now 
here that you came from Britain to the United States to 
testify. What do you hope comes from this hearing today? What 
can you expect? What would your desires be that we accomplish?
    Mr. Jennings. As I was saying earlier and as Mr. Blumenthal 
was mentioning, the independent inquiry, similar to the United 
States Olympic Committee, is the first essential because then 
you look in the mirror with U.S. Soccer and you see where you 
went dramatically wrong. That inquiry could go back into how 
you were blind and deaf and dumb over the CONCACAF programs, 
how you have walked away from problems at FIFA. America doing 
that would have other countries saying, oh, we can do this as 
well. So I would hope that you do set up independent--not with 
the permission of Guinea-Bissau or Tanzania, but your own 
commission of inquiry. I think that is the first thing.
    The second thing is this farce going on, Blatter is going 
to set a date possibly for a Congress. I will tell you from our 
inquiries there are no Congress facilities booked by the rest 
of the year by FIFA in Zurich. He is going to stay there and 
wait for us all to get tired and go away. It has always worked 
for him in the past. Only the FBI can sort him out. But you can 
walk away or you are cowards, you are weak, and you have no 
perspective on the rest of the world. And I do not think that 
is true of America generally.
    Senator Moran. Mr. Hershman, you were--let me look and see 
the right words--a member of FIFA's Independent Governance 
Committee. What did not occur? It appears to me that there was 
an effort at changing previously. You were involved in the 
effort to make a change, but it did not happen. Is that an 
accurate analysis? And why not?
    Mr. Hershman. Well, it is an accurate analysis. Look, we 
came in as a group of independent compliance experts and sports 
experts to look at the internal checks and balances of FIFA, to 
look at their compliance and governance procedures. We did so. 
We made a number of recommendations, many of which, by the way, 
were adopted by FIFA, for example, establishing a new Ethics 
Committee with two co-chairs, independent outsiders, one to do 
investigations and an adjudicatory chamber of the Ethics 
Committee. We established an independent chair of the Audit 
Committee of FIFA.
    But frankly, when it came to recommendations that I 
consider to be no-brainers because they are common standards 
around the world, including term limits for Executive Committee 
members and the president, including transparency of 
compensation. To this day, no one knows what the president of 
FIFA is paid, nor what the members of the Executive Committee 
are paid. When it came to having them create an independent 
outside oversight body to ensure that governance and compliance 
programs that we recommended were being implemented, they 
turned that down as well. So a number of key recommendations 
that might have made a difference were turned down.
    Having said that, I want to emphasize that I do not 
believe, even if they had adopted the recommendations without a 
change in leadership, without a change in culture, we would 
have seen much different.
    Senator Moran. Thank you.
    Mr. Flynn, the U.S. Soccer Federation particularly 
according to Mr. Jennings has a greater role to play. I want to 
make certain that you have a chance to tell us anything that 
you would like for us to know to, in a sense, set the record 
straight if there is something that you feel needs to be said 
and also to ask you the question is there something that you 
would ask from us as we try to ally in the efforts for change, 
reform, improvements.
    Mr. Flynn. Thank you, Senator.
    Well, I think one point I would like to crystallize is that 
U.S. Soccer would support an inquiry. As a national 
association, I do believe we have the authority to do so under 
the current governance.
    As it relates to your question, what the U.S. Senate could 
possibly do, we welcome any opportunity for the U.S. Senate to 
weigh in with your counterparts in Qatar or Russia or whoever 
it might be for any particular issue. We would welcome that and 
be ready to work with you on that as well.
    Senator Moran. Do you know if there is any ongoing 
conversations between U.S. Government officials and other 
countries associated with FIFA and these allegations and 
criminal indictments related to corruption at FIFA? Do you know 
whether our Government is associating with other countries 
trying to facilitate change?
    Mr. Flynn. Senator, I am unaware of any activity.
    Senator Moran. Excuse me just one moment.
    I am going to recess the hearing just for a moment. Mr. 
Blumenthal is on his way back from a vote. I will go cast the 
next vote, and I will be back. But we will have a brief, 
subject to the call of the Chair, recess which might be of 
value to those of you who have been sitting there for a bit. So 
the Subcommittee is recessed until the call of the Chair.
    [Pause.]
    Senator Moran. The Chair calls the meeting back to order.
    Senator Blumenthal. This will be a brief few questions.
    Mr. Flynn, would you commit to establish a better system of 
accountability within U.S. Soccer through some kind of internal 
inspector generals, a watchdog protection system?
    Mr. Flynn. We actually, through our outside counsel, have 
hired someone to look at all of our ways in which we govern 
ourselves, and that process has been started and supported by 
our board as well.
    Senator Blumenthal. When will that process be completed?
    Mr. Flynn. It has just started, so I think it would be a 
better approach for us to get back to you with the time frames 
once we have a chance to discuss in more detail.
    Senator Blumenthal. Mr. Hershman, you testified that sports 
are undermined by a lack of accountability, and I agree. Would 
you say that that kind of voluntary system is sufficient to 
bring some higher degree of integrity to a corrupt system, or 
at least U.S. Soccer has been involved in a corrupt system, or 
should sports entities be, in some way, overseen or scrutinized 
or regulated by a public authority?
    Mr. Hershman. I do not want to see Government take away 
total autonomy from sports organizations. I do not think that 
would be the right way to go.
    But I do think that if voluntary standards and principles 
are not adopted and enacted, then Government should set up some 
sort of regulatory protocol to ensure that sports organizations 
are keeping best practices and standards.
    There is a tremendous threat to sports worldwide. It has 
not completely hit the shores of our country yet. Illegal 
gaming in sports totals about $500 billion a year. Let me 
repeat that. $500 billion a year is bet on sports illegally. 
That has led to an increase in match-fixing, which has become 
endemic in Europe, in Africa, in Asia, in Latin America. While 
we have not experienced it here, it is rearing its ugly head. 
Six weeks ago, a gambler from Detroit was sentenced to 6 years 
in prison for paying college basketball players to fix matches.
    And so what I am hoping this committee will do and what our 
Government will do is get ahead of the curve to begin to see 
that certain standards are put in place voluntarily or 
otherwise in order to bring a bit--well, hopefully to bring 
some of the well known purity back to sports.
    Senator Blumenthal. Mr. Hershman, you said that members of 
FIFA's Executive Committee should disclose their salaries I 
believe.
    Mr. Hershman. That is correct.
    Senator Blumenthal. Mr. Gulati is on FIFA's Executive 
Committee. Mr. Flynn, do you agree that he should disclose his 
earnings?
    Mr. Flynn. I believe that we have pushed for change on 
that, and I believe that U.S. Soccer--and we would support 
that, yes.
    Mr. Hershman. Actually, if I might interrupt, Senator. Mr. 
Gulati, before he was appointed to the Executive Committee--he 
served with me on the Independent Governance Committee, and he 
voted in favor of our recommendation for compensation 
transparency.
    Senator Blumenthal. Can we expect that will happen then, 
Mr. Flynn?
    Mr. Flynn. We will do everything we can within our power of 
the United States Soccer Federation. Ultimately I believe that 
is going to be a FIFA Executive Committee vote.
    Senator Blumenthal. When will FIFA make that decision?
    Mr. Flynn. I do not know the answer to that. I would be 
more than happy to follow up and get you that.
    Senator Blumenthal. I would appreciate it.
    Mr. Bery, can you tell the Committee what more you think 
FIFA can do very specifically and directly to stop human rights 
abuses, including human trafficking, exploitation of child 
labor, horrific working conditions, illegal holding of 
passports, in effect, involuntary confinement of workers and 
other abuses involved in construction in host facilities, and 
hotels? The breadth of these violations I think has been 
somewhat inadvertently lost in these proceedings, which have 
focused more on the corruption, the overt criminal corruption, 
and yet these human rights abuses are real and unspeakable.
    Mr. Bery. You are absolutely right, Senator. The bottom 
line is that there are two big pieces of the puzzle that FIFA 
can help solve when it comes to addressing the major problems 
of labor exploitation in Qatar today and potentially in 
countries that will be future hosts for the FIFA World Cup.
    The first piece of the puzzle is the question of what the 
evaluation process is during the bidding process to be a 
potential host of the World Cup. Now, FIFA has said that for 
the 2026 World Cup, it is going to include human rights 
requirements in its bidding process. It is unclear right now as 
to what those human rights requirements are going to be, and 
any such initiative must result in FIFA having adequate human 
rights due diligence systems in place so that FIFA can become 
aware of and prevent human rights abuses as a consequence of 
the staging of World Cup events in the future. So that is the 
first piece, the evaluating of bids to be a host country.
    Any such evaluation in the context of Qatar, for example, 
would have revealed serious problems when it comes to labor 
exploitation rising up to forced labor and, as we have spoken 
about earlier in this hearing, the risk of injury and death to 
some foreign migrant workers in the country.
    The second piece of the puzzle, though, for FIFA is what 
happens when it raises an issue verbally or via text to the 
host government--in this case, Qatar--the Government of Qatar 
then says, OK, we are going to do X, Y, Z, and then a year 
later, as Amnesty International has documented in our report, 
the Government of Qatar largely fails to address the issue. 
Verbal assurances are not enough. And so there is a real 
question for FIFA as to what happens now.
    The clock is ticking and it is not enough to wait 5 years 
from now to have serious reforms when it comes to labor rights 
in Qatar. Every day that goes by is another day that more of 
the hundreds of billions of dollars of infrastructure for the 
2022 World Cup are already built and completed. And every 
single day that goes by without labor reforms in Qatar is 
another day in which a foreign migrant worker is potentially 
subject to forced labor. It potentially puts their life at risk 
in a very unsafe construction facility, potentially comes home 
to a filthy set of housing accommodations, or is potentially 
simply denied their pay while their family is at risk of being 
evicted from their home. And so for FIFA, the real question is 
what are they going to do now when a year after the Government 
of Qatar has claimed that it is going to take steps to address 
the problem, the reality is that for some of the worst human 
rights violations in Qatar in the context of labor 
exploitation, not enough has been done.
    Senator Blumenthal. I want to just add one last or maybe 
two last questions, one of them having to do with an issue 
raised by my colleague, Senator Klobuchar. I was astonished and 
troubled to learn that men's teams that exited in the very 
first round of the competition in the World Cup were paid $8 
million, an amount 400 percent greater than what the women 
world champions were awarded. Mr. Flynn, what can be done and 
what are you planning to do to address this pay disparity?
    Mr. Flynn. Thank you.
    We are a strong advocate for the women's game. During the 
championship weekend, I met with the Canadian Soccer 
Association, my counterpart, who was the operating officer for 
the World Cup. We addressed several things in terms of in an 
after-action report, being compensation, the what I would call 
team environment, the types of hotels, and the number of teams 
at hotels. All of those kinds of things should be included in 
an after-action report. We will continue then with our FIFA 
Executive Committee member, Mr. Gulati, to push for a continued 
development on the women's side, and one of those items would 
be an increase in compensation for those competing and 
participating teams in the World Cup and other competitions 
potentially as well.
    Senator Blumenthal. Thank you. I will have more questions 
for you on this issue. I will submit them in writing. I think 
your testimony, all of your testimony, has been very helpful 
and informative. In my view, this hearing is really only a 
beginning of an inquiry that the Congress has a responsibility 
to conduct, and that inquiry is only one step in a larger, very 
intensive and critical scrutiny that has to be given to the 
responsibility of the United States sports organizations.
    We have spent a good deal of time over the last 24 or 48 
hours talking amongst ourselves about issues of national 
security and the agreement that has been reached by the 
administration to stop nuclear proliferation most specifically 
with Iran. The power of the United States consists not only of 
its military force but its moral example. Its exceptionalism 
derives from its values and its ethics.
    And the fans here and around the world deserve better from 
these sports organizations that have responsibility to oversee 
and organize the game of soccer. Corruption is not a game. It 
is deadly serious. It is criminal and it betrays the trust of 
fans. U.S. Soccer, as I have said earlier, had a responsibility 
to know. Either it knew or it should have known. And the fans 
can judge which is worse.
    I want to thank you again for being here today and hope 
that you will continue to cooperate with our inquiry. Thank 
you.
    Senator Moran. Mr. Blumenthal, thank you very much.
    This is our last round of questioning. I am going to bring 
this hearing to a conclusion particularly under the assumption 
I may have suggested to you you needed a recess. And so we are 
going to give you one. We are going to adjourn.
    But let me first say, before I do that, thank you all for 
your testimony. This is in my view something that is a very 
important issue, a very serious matter.
    Mr. Flynn, I particularly thank you for your testimony, and 
I want you and our audience, our witnesses, those who are 
paying attention to this hearing that we want absolutely the 
best for U.S. Soccer. I think the point I would make is that we 
cannot tolerate the status quo and that there are serious 
consequences from that status quo. They are real and in some 
instances life-threatening or perhaps life-taking. And we do 
not want another decision to be made for the next site for the 
World Cup that is subject to the allegations or the reality 
that corruption continues to occur.
    So from an individual Senator, I just offer to you, Mr. 
Flynn, to U.S. Soccer Federation, the opportunity to work in 
any way we can to assist you as you make the effort to make 
sure the status quo is not continued. And I thank you very much 
for being here, as I would say to all of the witnesses here. 
Thank you for the serious nature in which we treated this 
topic.
    With that, let me say a few significant words that are 
necessary for the record, and that is that the hearing record, 
the record of this hearing, will remain open for 2 weeks. 
During that time, Senators are asked to submit any questions in 
writing that they have for the record. Upon receipt by you, the 
witnesses, we would request that you submit written responses 
to the Committee just as soon as possible.
    And with that, I will conclude this hearing and again thank 
the witnesses. This hearing is now adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

                                            Humanity United
                                      Washington, DC, July 29, 2015

Hon. Jerry Moran,
Chairman,
Subcommittee on Consumer Protection, Product Safety, Insurance, and 
Data Security,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Richard Blumenthal,
Ranking Member,
Subcommittee on Consumer Protection, Product Safety, Insurance, and 
Data Security,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Moran and Ranking Member Blumenthal:

    We respectfully request that you include the attached written 
statement by Humanity United in the formal written record for the 
hearing entitled ``Examining the Governance and Integrity of 
International Soccer'' before the Subcommittee on Consumer Protection, 
Product Safety, Insurance, and Data Security on July 15, 2015.
    Specifically, this written statement offers recommendations to U.S. 
and international companies working building infrastructure, tourism 
and entertainment venues, World Cup stadiums, and other projects ahead 
of the 2022 World Cup. The statement is particularly timely given the 
introduction of HR 3226, the Business Supply Chain Transparency on 
Trafficking and Slavery Act of 2015. Introduced on a bipartisan basis 
by U.S. Rep. Carolyn Maloney (D-NY) and U.S. Rep. Chris Smith (R-NJ), 
this bill would require public companies with annual worldwide receipts 
above $100 million to include in their annual reports to the Securities 
and Exchange Commission (SEC) a disclosure describing measures taken to 
identify and address conditions of forced labor, modern slavery, human 
trafficking, and the worst forms of child labor within a company's 
supply chains.
    We appreciate your attention to this matter. If you have additional 
questions, please contact me at, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fdf2f6e1f2e4d7ffe2faf6f9fee3eee2f9fee3f2f3b9f8e5f0b9">[email&#160;protected]</a>
            Sincerely,
                                               Jesse Eaves,
                       Director of Policy and Government Relations,
                                                       Humanity United.
                                 ______
                                 
    Prepared Statement of Catherine Chen, Director of Investments, 
                            Humanity United
    Established in 2005, Humanity United is a U.S.-based foundation 
dedicated to building peace and advancing human freedom. At home and in 
the corners of the globe where these ideals are challenged most, we 
lead, support, and collaborate with a broad network of efforts, ideas, 
and organizations that share our vision of a world free of conflict and 
injustice. Humanity United is part of the Omidyar Group, which 
represents the philanthropic, personal, and professional interests of 
Pierre and Pam Omidyar.
    Since 2011, Humanity United has supported efforts to protect 
Nepalese workers migrating to the Gulf and Malaysia. Based in no small 
part on FIFA's decision to award the 2022 World Cup to Qatar, Humanity 
United currently funds a multi-year, multi-million dollar initiative to 
foster greater protection of migrant workers who make up the majority 
of Qatar's workforce.
    Reports from Amnesty International, Human Rights Watch, DLA Piper, 
The Guardian, ESPN and other global media outlets have shone a bright 
light on the use of forced labor on major construction projects and in 
other industries in Qatar ahead of the 2022 World Cup. Unfortunately, 
increased international awareness has not yet resulted in meaningful 
action to improve the situation for workers on the ground.
    For the purposes of this hearing, we wish to focus on the 
responsibilities stakeholders--primarily U.S. and international 
corporations, the Government of Qatar, and the governments of countries 
where these workers originate--have to ensure the 2022 World Cup and 
ongoing development in Qatar do not continue to facilitate widespread 
human rights abuses. It is important to state at the outset that 
Humanity United's concern is not limited to the stadiums being 
constructed to host World Cup events. Our concern is for workers 
involved in all aspects of Qatar's development toward its long-term 
Vision 2030--which is why the focus has to be broader than just 
ensuring that any specific World Cup project adheres to proper 
standards.
    In addition to reports by global rights groups and the media, 
Qatar's national university published research findings \1\ in 2012 
highlighting major concerns over working conditions of migrant workers. 
In a random survey of nearly 1,200 low-income migrant workers:
---------------------------------------------------------------------------
    \1\ http://www.ituc-csi.org/IMG/pdf/gardner_et_al_portrait.pdf

  <bullet> 90 percent of workers stated that their employer held their 
---------------------------------------------------------------------------
        passport,

  <bullet> More than 1 in 5 workers (21 percent), ``sometimes, rarely 
        or never'' received their salary.

  <bullet> 15 percent of workers found themselves ``put to work in a 
        different position when they arrived'' in Qatar than they were 
        recruited to perform in their country of origin.

  <bullet> 20 percent arrived in Qatar to a salary different from the 
        one promised to them in the sending country.''

    To make matters worse, these same workers pay exorbitant fees to 
private recruitment agencies in their home countries for an opportunity 
to work in Qatar. Workers on average reported a debt that is equivalent 
to three to four months salary--forcing them to endure whatever working 
condition they are given, just to repay those debts. At the heart of 
these abuses is Qatar's strict sponsorship regulations, commonly 
referred to as kafala which prohibit workers from changing jobs, 
quitting their jobs or even leaving the country unless given permission 
by their employer. These regulations foster an environment where 
workers have very few opportunities to protect themselves from deceit, 
exploitation, and abusive control by employers, conditions that 
facilitate forced labor and human trafficking.
    The Government of Qatar needs to reform the kafala system to 
eliminate private employers' ability to control whether a worker can 
quit their job or leave the country. As outlined by a 2014 DLA Piper 
report \2\ commissioned by the State of Qatar, the government of Qatar 
has the power and resources to stem many of these abuses. In May 2014, 
Qatar announced its intention \3\ to make significant progress to 
improve working conditions. Some positive steps have been taken, such 
as developing worker welfare standards, hiring more than 200 new labor 
inspectors and rolling out a mandatory electronic wage payment system. 
However, implementation and enforcement have remained inconsistent at 
best and superficial \4\ at worst, with workers continuing to suffer. 
More than a year after the announcement, no reforms have taken place to 
eliminate the ability of employers to treat workers like commodities 
\5\--namely their ability to prohibit workers from changing jobs or 
leaving the country.
---------------------------------------------------------------------------
    \2\ http://www.engineersagainstpoverty.org/
documentdownload.axd?documentresourceid=58
    \3\ http://www.moi.gov.qa/site/english/news/2014/05/14/32204.html
    \4\ http://www.amnestyusa.org/research/reports/promising-little-
delivering-less-qatar-and-migrant-labor-abuse-ahead-of-the-2022-
football-world-cup
    \5\ http://thepeninsulaqatar.com/qatar-perspective/ahmed-al-
mohannadi/285620/where-are-the-sponsor-s-rights
---------------------------------------------------------------------------
    As part of its oversight of World Cup 2022, FIFA and its major U.S. 
corporate sponsors including Visa, Coca-Cola, McDonalds and others 
should use their influence to demand these changes take place in Qatar, 
and put into place a definitive timeline to see these changes occur. It 
is wholly unacceptable for U.S. public companies to benefit from the 
sponsorship of major international events that violate human rights 
through forced labor and human trafficking. U.S. corporate sponsors 
should expand their focus beyond reforming FIFA's leadership to demand 
the protection of workers building World Cup stadiums and all related 
infrastructure.
    While reform and enforcement of laws must be led by Qataris, who 
have the power and resources to enforce worker protection within their 
country, they do not bear all of the blame for the abuse of workers. 
Across the Gulf region, the majority of these abuses are perpetrated by 
smaller subcontractors on projects helmed by international construction 
and engineering companies, and are exacerbated by widespread deception 
and fraud about fees, terms, jobs, and locations perpetrated by private 
recruitment and employment agencies in countries of origin.
    Multinational and international companies--particularly U.S. 
companies--involved in construction in Qatar and the rest of the Gulf 
must look critically at their own supply chains to identify and address 
worker abuse and ensure timely payment to all workers, especially those 
hired by their subcontractors.
    As industry leaders, these companies must be at the forefront of 
worker protection, just as they have led on job site health and safety 
issues. They should institute rigorous inspection and grievance 
reporting mechanisms that encourage workers at any level of the supply 
chain to report nonpayment of wages, passports or ID cards being 
withheld, contract violations, health and safety concerns, or other 
workplace abuses. Companies should actively partner with international 
civil society organizations that can independently monitor working 
conditions through unfettered access to workers, report on abuses, and 
ensure that workers have an effective way to register grievances. 
Further, the Qatari government should insist they do so, and fully 
enforce the existing labor law to penalize passport withholding, 
nonpayment of wages, and standards for housing.
    From the outset, measures should be taken to ensure workers are 
recruited without paying any fees. Companies should factor in the real 
cost of recruiting foreign workers into their bids, demanding no-fee 
recruitment in subcontracts and pursuing legal action when necessary.
    Of particular concern are those companies who implement contracts 
for the U.S. Department of Defense's Central Command base in Doha and 
also manage building and infrastructure projects in Qatar and elsewhere 
across the Gulf. Executive Order (E.O.) 13627, Strengthening 
Protections Against Trafficking In Persons In Federal Contracts, and 
Title XVII of the National Defense Authorization Act, Public Law 112-
239, the End Trafficking in Government Contracting Act (ETGCA) 
expressly prohibit Federal contractors and their employees, in addition 
to all subcontractors and their employees, from charging recruitment 
fees to workers seeking overseas employment. U.S.-based contractors and 
construction firms that are fulfilling contracts for the U.S. 
Government and operating around the world (including the Gulf) could 
find themselves in violation of U.S. law if they are using 
subcontractors or suppliers who employ workers who have paid 
recruitment fees as a condition for employment.
    Countries that send workers to Qatar, starting with Nepal, need 
much stricter regulation and oversight on recruitment companies that 
operate within their borders. Workers regularly report paying 200-300 
percent \6\ more than the legal amount \7\ to recruiters in order to 
migrate from Nepal to Qatar--often the equivalent of six months of 
their earnings in Qatar. In Nepal alone, there are as many as 80,000 
individual unlicensed \8\ labor agents offering any manner of 
employment terms to workers who are desperate to earn money for their 
families.
---------------------------------------------------------------------------
    \6\ http://www.amnesty.org/en/library/asset/ASA31/007/2011/en/
b58f0185-455d-425c-bc4f-d6b7fe309524/asa310072011en.pdf
    \7\ http://ceslam.org/mediastorage/files/Agreement between the 
Government of Nepal and the Government of the State of Qatar.pdf
    \8\ http://www.ceslam.org/docs/publicationManagement/CESLAM Policy 
Brief 5.pdf
---------------------------------------------------------------------------
    As long as countries of origin allow recruitment agencies to 
operate with little to no oversight, workers will continue to arrive 
\9\ in Qatar under false pretenses -unclear on the terms of their 
employment, cheated out of their limited and hard-earned savings, and 
ill-equipped with needed skills. As the country benefiting from this 
labor, Qatar should demand greater scrutiny of recruitment companies 
and ban those that are found to be deceiving workers or profiting from 
their vulnerability. At the same time employers who hire these workers 
need to put clear accountability measures into place to ensure workers 
are recruited without paying any fees and with transparent terms.
---------------------------------------------------------------------------
    \9\ http://www.ekantipur.com/the-kathmandu-post/2014/07/24/nation/
qatar-demands-180k-nepalis-in-a-yr/265353.html
---------------------------------------------------------------------------
    While the global debate goes on about FIFA's corruption and its 
selection of World Cup locations, workers remain unpaid, leaving their 
families in desperate situations. Ending the systematic exploitation of 
migrant workers in Qatar requires more than changing the leadership of 
FIFA or relocating the World Cup. It requires a coordinated effort by 
FIFA sponsors to demand accountability of host countries on human 
rights; the Government of Qatar to reform and enforce laws; governments 
of sending countries to regulate recruiters and abolish recruitment 
fees; international construction, engineering and hospitality companies 
to change their recruitment and subcontracting practices; and perhaps 
most of all, shareholders and the public to demand change. Through all 
of this, the U.S. Government and this committee have an active role to 
play in ensuring that U.S. taxpayer dollars and U.S. corporations are 
not inadvertently supporting forced labor and human trafficking of 
migrant workers in the Gulf.
    We thank you for holding this important hearing and look forward to 
working with the Committee to see the U.S. play a positive role in 
these efforts.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Daniel Flynn
    Question 1. The FIFA Regulations on the Status and Transfer of 
Players (RSTP) establishes a system that mandates that a professional 
soccer club signing a player to a professional contract or paying a 
transfer fee for a player must pay training compensation and solidarity 
fees to all of the player's previous youth clubs from ages 12-23. The 
FIFA RSTP apply worldwide and do not establish any exemptions for the 
United States, USSF or Major League Soccer (MLS), and the Bylaws of the 
USSF contain no exemption from the RSTP. However, in view of a letter 
of complaint dated June 29, 2015, from the Crossfire Foundation, Inc., 
a youth soccer club in Redmond, Washington, to the FIFA Executive 
Committee, a pattern and practice has come to light demonstrating that 
the USSF both consents to and assists in MLS' practice of taking 
solidarity fees owed to non-MLS youth soccer clubs in the United 
States, and also interferes with U.S. youth clubs seeking training 
compensation from foreign professional soccer clubs. Furthermore, the 
USSF itself prevents foreign professional clubs from otherwise paying 
solidarity fees and training compensation to non-MLS American youth 
soccer clubs by claiming that receipt of these fees in the U.S. by 
youth soccer clubs is illegal under U.S. law.
    MLS took the entire solidarity fee for the transfer of the U.S. 
soccer players including DeAndre Yedlin, Clint Dempsey, and Jozy 
Altidore, and paid none of it to any of their respective U.S. youth 
soccer clubs that were owed portions of the fees. Please describe this 
process and explain why the solidarity fees are not awarded to youth 
clubs as called for in FIFA regulations.
    Answer. This is a complex issue involving consideration of 
antitrust and other laws that is difficult to explain in a relatively 
short response. Nevertheless, U.S. Soccer provides the following 
information.
    By way of background, the Fraser order was entered in 1997 by a 
Federal district court in connection with the partial resolution of an 
antitrust class action suit brought by MLS players. That order followed 
a decision issued by the European Court of Justice in 1995, called 
Bosman. In that case, the ECJ considered the legality of a precursor to 
the current RSTP--FIFA rules requiring that a transfer fee be paid to a 
player's former club if the player signed with another club after his 
contract had expired. The ECJ determined that this rule negatively 
impacted the mobility of players and, therefore, violated the European 
Union Treaty. In response to the Bosman opinion, FIFA began developing 
a new approach to the player movement process which is now embodied in 
the RSTP.
    Consistent with the ruling in Bosman and given the antitrust laws 
of this country, U.S. Soccer agreed in Fraser that it would not enforce 
transfer fee or similar restrictions that FIFA might impose on the 
movement of players who were ``out of contract.'' Some aspects of the 
current FIFA RSTP may be considered applicable to out-of-contract 
players and, therefore, the Fraser order would apply in those 
circumstances.
    In addition, U.S. Soccer concluded, with the advice of outside 
counsel, that enforcing the RSTP with respect to the training 
compensation and solidarity payment mechanisms could be found to 
violate the antitrust laws of the United States given their potential 
impact on the mobility of players. Given recent European court 
decisions regarding player mobility--and in light of the growth of the 
sport of soccer in the United States, including the emergence since 
2007 of the Development Academy, whose clubs often directly fund the 
training of elite players--that analysis is currently being brought up-
to-date. But, U.S. Soccer has chosen not to enforce those aspects of 
the RSTP system that are of questionable legal validity in this country 
and which might expose U.S. Soccer to increased legal risk.
    Over the past several years, several intermediate courts in Europe 
have determined that some methods of training compensation and 
solidarity payment mechanisms are unlawful and violate the EU Treaty. 
In other words, the decisions by the intermediate European courts are 
consistent with the conclusion U.S. Soccer reached regarding the 
potential for antitrust risk. This issue is likely to make its way back 
to the ECJ in the near future; as a result, the viability of the RSTP 
may be subject to significant scrutiny in Europe over the next several 
years.
    With that background, and while not intending to speak for MLS, it 
is our understanding that MLS agreed to transfer the players referred 
to in return for a specific transfer fee based, in part, on U.S. 
Soccer's long-stated policy not to enforce the RSTP solidarity 
mechanism. As we understand it, if U.S. Soccer enforced the solidarity 
mechanism MLS would have demanded higher transfer fees, as this fee was 
agreed upon with the understanding that no portion of it would in turn 
be ``passed on'' by MLS. Of course, there is no way of knowing whether 
any of the transferee clubs would have paid a higher transfer fee for 
any of these players and, if they would not, whether the transfer of 
these players would have occurred.
    We do note that U.S. Soccer's decision not to enforce the RSTP is 
not limited to MLS and its players. Transfers of NASL players or USL 
players to foreign leagues are treated in the same manner. In other 
words, U.S. Soccer's decision not to enforce the RSTP applies is not 
applied in a discriminatory manner but applies evenly to all leagues 
and all U.S. players.

    Question 2. If the USSF maintains that a consent decree in the case 
of Fraser v. MLS mandates that solidarity fees not be paid, please 
explain how that consent decree, which only USSF has signed and is 
bound by, denies any U.S. youth soccer club from receiving training 
compensation and solidarity fees, yet allows the MLS to collect these 
same fees.
    Answer. See U.S. Soccer Response to Question No. 1

    Question 3. How does U.S. law, or the Fraser consent decree, bar 
U.S. youth clubs from receiving training compensation from U.S. 
professional teams, especially with respect to ``scholarship'' players 
who received training from their U.S. youth clubs without paying a club 
training fee?
    Answer. See U.S. Soccer Response to Question No. 1

    Question 4. If USSF has determined that U.S. antitrust law or the 
Fraser consent decree prevent the award of training compensation to 
U.S. youth soccer clubs within the U.S., why has USSF has not created 
or attempted to create a U.S. system for compensating U.S. youth clubs 
for their training role in U.S. youth players, both men and women?
    Answer. Any U.S. Soccer-imposed system applicable to the movement 
of players between and among clubs in the United States would be 
subject to the same legal risks discussed above (and perhaps additional 
risks). Further, the stated goal of the RSTP system is to compensate 
amateur teams for their investment in player development. Historically, 
in the United States (as distinct from many countries elsewhere 
throughout the world), the cost of player training and development was 
typically borne by the families of young players, and in the case of 
top-level players, by U.S. Soccer itself. Development clubs have 
certainly grown in the United States over the past several years and we 
understand that Development Academy clubs are granting more 
scholarships than before--and that evolution will be one of the factors 
considered in the new legal analysis being conducted by U.S. Soccer's 
outside counsel.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                              Daniel Flynn
    Question 1. Media reports suggest that you are nearing the end of a 
nine-month exclusive negotiating period with a group in Texas that has 
made a proposal to relocate the National Soccer Hall of Fame after the 
closure of its previous site in upstate New York in 2010. There has 
been interest in hosting the Hall of Fame from a number of sites around 
the country. Please provide information on the process U.S. Soccer 
undertakes to select a new site for this facility. What principles of 
competitiveness, fairness, and transparency does U.S. Soccer follow in 
making a significant decision like this?
    Answer. By way of background, the National Soccer Hall of Fame and 
Museum was established by a group of former professional and amateur 
players in the 1950s, wholly separate and apart from U.S. Soccer. In 
1979, they opened a museum in Oneonta, NY which was officially 
recognized by U.S. Soccer as the ``National Soccer Hall of Fame'' 
(NSHF) in 1983. The NSHF maintained a physical presence in Oneonta 
until early 2010. Unfortunately, the museum proved, over time, not to 
be a financially self-sustaining enterprise and, by virtue of its 
location (in the ``snow-belt'') was not readily accessible for a number 
of months out of the year. U.S. Soccer provided significant 
supplemental funding to the NSHF for a number of years. Ultimately, 
however, not even U.S. Soccer's financial support was sufficient to 
maintain the museum facility which closed its doors in February 2010.
    Since then, its archives of more than 80,000 items, which make up 
one of the largest collections of soccer artifacts and records in the 
world, have been preserved in a storage facility in North Carolina 
provided by one of the NSHF's longtime corporate sponsors. 
Notwithstanding the museum's closure, the annual Hall of Fame election 
and induction process has continued uninterrupted, with the location, 
and implementation of the specific induction ceremonies being funded by 
U.S. Soccer.
    Because U.S. Soccer believes it is important to continue to promote 
and preserve the history of soccer for the growing community of fans 
across the nation, we have been exploring ways to revitalize and find a 
permanent home for the museum and its archives. A number of groups have 
developed and presented a variety of alternative concepts and ideas for 
a museum. However, these concepts generally suffered from a variety of 
deficiencies and were either unfunded or included as part of their 
proposal a significant infusion of funds from U.S. Soccer.
    Recently, however, Frisco Stadium, LLC, the operator of Toyota 
Stadium in Frisco, Texas, made a proposal involving a permanent 
structure which would be accessible to a large numbers of visitors 
annually in a weather-friendly environment. The proposal includes the 
involvement of the local government and only a limited financial 
commitment from U.S. Soccer. In the more than five years since the 
closure of the museum, the Frisco Stadium proposal appears to be the 
most viable and most well-funded of the alternatives presented to U.S. 
Soccer for a permanent and sustainable museum.
    U.S. Soccer's Board of Directors is aware of the discussions and 
supports a continuing dialogue with the Frisco Stadium group.

    Question 2. Although the international news coverage of the Justice 
Department's indictments against FIFA officials focused on FIFA as a 
global institution, the regional soccer confederation of which the U.S. 
Soccer Federation is a member was at the center of many of the criminal 
activities alleged in the Justice Department's indictments. On July 4, 
2015, CONCACAF approved a Reform Framework designed to clean up severe 
deficiencies in governance, transparency, and fraud protection that 
helped allow corruption to flourish. U.S. Soccer President Sunil Gulati 
was a member of the panel that developed the Reform Framework. How does 
U.S. Soccer intend to hold accountable what has become a systemically 
unaccountable confederation in implementing these reforms? How will 
U.S. Soccer push CONCACAF to ensure these important reforms are made?
    Answer. By way of background, as a condition to its membership in 
FIFA, U.S. Soccer is required to be a member of its regional 
confederation, in this case CONCACAF. In CONCACAF, U.S. Soccer is but 1 
of 41 members, 35 of which have full FIFA voting rights.
    U.S. Soccer President Sunil Gulati was elected to the CONCACAF 
Executive Committee in 2007, as one of eight voting members. Because of 
his election as a CONCACAF representative to the FIFA Executive 
Committee in 2013 (by a vote of 18 to 17), Mr. Gulati remains on the 
CONCACAF Executive Committee but now as a non-voting member.
    That said both U.S. Soccer and Mr. Gulati have always been strong 
public advocates for good governance, leadership and transparency both 
at FIFA and CONCACAF. Indeed, Michael Hershman, President and CEO of 
the Fairfax Group and one of the presenting witnesses at the hearing, 
was quoted as saying the following about Mr. Gulati in the National 
Journal the very morning of the hearing: ``I have a great respect for 
Sunil Gulati. . . . He is a role model for change, a man who has 
advocated and worked for change throughout his career. He's someone 
that we should be proud of, because he represents a new generation of 
leadership.''
    As you may know, Mr. Gulati was selected to serve on the three-
person Special Committee to help guide CONCACAF through the current 
period of turmoil and to advocate, not only for the passage of reforms, 
but for honoring and adhering to those reforms once enacted. And, over 
the July 4th weekend, the CONCACAF Executive Committee, based on the 
recommendations of the Special Committee, unanimously approved a series 
of sweeping reforms to address governance, fraud prevention and 
compliance and transparency.
    Within the context of their roles in CONCACAF, U.S. Soccer and Mr. 
Gulati will continue to advocate for reform, good governance and 
transparency and, as U.S. Soccer has done historically, to lead by 
example.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Daniel Flynn
    Question 1. Concussions and the dangers of repeated head trauma 
have garnered a lot of attention in American football. But soccer faces 
its own concussion crisis. Chronic traumatic encephalopathy (CTE) is a 
degenerative brain disease caused by repetitive head trauma. CTE has 
recently been diagnosed in a former Brazilian international soccer 
player and two American amateur soccer players, including the late 
Patrick Grange from New Mexico. Although the benefits of sports far 
outweigh the risks for almost everyone, sports-related concussions do 
represent a significant health concern. FIFA and U.S. Soccer Federation 
set rules and guidelines for the sport that are widely followed by 
youth leagues. This includes policies for protecting player safety. 
Could you describe U.S. Soccer Federation's policies and rules for 
player safety concerning head injuries and concussion?
    Answer. U.S. Soccer takes the issue of player safety, including 
concussions, very seriously. For the teams over which U.S. Soccer has 
direct control (its senior national teams and youth national teams) and 
the development academy program, U.S. Soccer follows the consensus 
concussion assessment, concussion management and return-to-play 
protocols.
    For a number of years, U.S. Soccer and many of its youth 
organization members have been partners with the Centers for Disease 
Control in its Head's Up To Youth Sports program. The CDC site contains 
numerous resources and educational materials for parents, athletes, 
coaches, schools and health care professionals about concussions, 
symptoms, management, and both a graduated return-to-play protocol and 
a graduated return-to-learn program.
    U.S. Soccer co-sponsored President Obama's ``Healthy Kids and Safe 
Sports Concussion Summit'' held at the White House on May 29, 2014 and, 
in conjunction with the President's Summit, U.S. Soccer announced a 
joint U.S. Soccer-Major League Soccer Medical Summit for the fall of 
2014 which was held last October with a follow-up session held in 
January of this year.
    U.S. Soccer has been exploring and preparing to address the issues 
of concussions and concussion management for many months and intends to 
announce, in the short term, a broad-based concussion initiative for 
its youth soccer members, parents, players, coaches, team managers and 
health care professionals with recommendations on concussion education, 
assessment, management and return-to-play guidelines as well as 
recommended restrictions on heading the ball for the younger age 
groups.

    Question 2. What steps is U.S. Soccer Federation taking to reduce 
concussions and brain trauma for youth players in the sport?
    Answer. See U.S. Soccer Response to Question No. 1

    Question 3. A recent study suggests that the number one cause of 
concussions in high school and youth soccer is heading the ball. Former 
U.S. national team stars Brandi Chastain, Cindy Parlow Cone, and others 
are part of the ``Safer Soccer Campaign'' to eliminate heading for 
youth soccer players under the age of 14. What is U.S. Soccer 
Federation's policy on how, and at what age, heading should be 
introduced in youth soccer?
    Answer. See U.S. Soccer Response to Question No. 1

    Question 4. I appreciate U.S. Soccer Federation's support for 
legislation I introduced in the 113th Congress, the Youth Sports 
Concussion Act, which would encourage better standards for sports gear 
and discourage false and misleading marketing claims for so called 
``anti-concussion'' sports equipment. Last month, Sen. Nelson and I 
wrote the Federal Trade Commission (FTC) to request an investigation of 
potentially misleading safety claims for soccer headgear. The 2013 
National Academy of Sciences report, ``Sports-Related Concussions in 
Youth: Improving the Science, Changing the Culture'' (available at 
www.iom.edu/Reports/2013/Sports-Related-Concussions-in-Youth-Improving-
the-Science-Changing-the-Culture.aspx) found that there is essentially 
no evidence that wearing soccer headgear reduces concussions. Do you 
agree that sports equipment makers should not use false or misleading 
head injury prevention claims to sell soccer headgear?
    Answer. U.S. Soccer absolutely agrees that headgear manufacturers 
should not make false or misleading claims about the efficacy of their 
products.

    Question 5. FIFA Law 4--The Players' Equipment states that ``modern 
protective equipment such as headgear . . . made of soft, lightweight 
padded material are not considered dangerous and are therefore 
permitted.'' Such headgear seems to be primarily sold to reduce the 
risk of concussions. Yet 2013 National Academies report found there is 
no evidence such headgear reduces concussions. In fact, the National 
Academies report and testimony before this committee at a 2011 hearing 
on ``Concussions and the Marketing of Sports Equipment'' (available at 
http://www.gpo.gov/fdsys/pkg/CHRG-112shrg73514/pdf/CHRG-
112shrg73514.pdf) indicates that players wearing headgear may actually 
be putting themselves and other players at greater risk of injury due 
to risk compensation behavior and a false sense of security.
    Given these concerns about the use of soccer headgear, should FIFA 
and U.S. Soccer Federation reconsider this rule for players' equipment?
    Answer. U.S. Soccer does not endorse any headgear and makes clear 
to its national team players who individually do so that they must 
avoid any suggestion that U.S. Soccer is endorsing the product. In 
addition, U.S. Soccer allows those few national team players who wish 
to wear conforming headgear to do so consistent with the FIFA rules. 
U.S. Soccer does attempt to inform those players (a) that the available 
scientific evidence does not support claims that such headgear will 
reduce the risk of concussion and (b) to be extremely cautious about 
the ``risk compensation affect'' and not play differently than the 
player ordinarily would because of the headgear.

                                  [all]

                  This page intentionally left blank.



      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
